<html>
<title> - OVERSIGHT HEARING ON EFFECTIVENESS OF FEDERAL DRUNK DRIVING PROGRAMS</title>
<body><pre>[Senate Hearing 110-1230]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1230
 
  OVERSIGHT HEARING ON EFFECTIVENESS OF FEDERAL DRUNK DRIVING PROGRAMS 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON TRANSPORTATION SAFETY,
               INFRUSTRUCTURE SECURITY, AND WATER QUALITY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works

         Available via the World Wide Web: http://www.fdsys.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

73-580 PDF                       WASHINGTON : 2013

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                              ----------                              

  Subcommittee on Transportation Safety, Infrastructure Security, and 
                             Water Quality

               FRANK R. LAUTENBERG, New Jersey, Chairman

BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     GEORGE V. VOINOVICH, Ohio
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
officio)                             officio)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 25, 2007
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from The State of New 
  Jersey.........................................................     1
Klobuchar, Hon. Amy, U.S. Senator from The State of Minnesota....     3
Boxer, Hon. Barbara, U.S. Senator from The State of California...     5
Vitter, Hon. David, U.S. Senator from The State of Louisiana.....    24
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    49

                               WITNESSES

Barrett, Hon. Thomas J., Deputy Secretary, U.S. Department of 
  Transportation.................................................     6
    Prepared statement...........................................     7
Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board..........................................................     9
    Prepared statement...........................................    11
Scovel, Hon. Calvin L., III, Inspector General, U.S. Department 
  of Transportation..............................................    14
    Prepared statement...........................................    15
Fields, Hon. Michael R., Judge, Harris County Criminal Court of 
  Law, Number 14, State of Texas.................................    28
    Prepared statement...........................................    30
    Responses to additional questions from Senator Lautenberg....    32
Wheeler, John, Governor's Crime Advisor, Department of Public 
  Safety, State of New Mexico....................................    33
    Prepared statement...........................................    34
Birch, Glynn R., National President, Mothers Against Drunk 
  Driving........................................................    35
    Prepared statement...........................................    37
    Responses to additional questions from Senator Lautenberg....    39

                          ADDITIONAL MATERIAL

Statements:
    Governors Highway Safety Association (GHSA)..................    51
    American Mediacal Association (AMA)..........................    57
    International Association of Chiefs of Police................    61
    International Association of Chiefs of Police, Impaired 
      Driving Subcommittee; Impaired Driving Guidebook: Three 
      Keys to Renewed Focus and Success..........................    63
    Insurance Institute for Highway Safety.......................    93


  OVERSIGHT HEARING ON EFFECTIVENESS OF FEDERAL DRUNK DRIVING PROGRAMS

                              ----------                              


                       THURSDAY, OCTOBER 25, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
     Subcommittee on Transportation Safety, Infrastructure 
                               Security, and Water Quality,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Frank Lautenberg 
(chairman of the subcommittee) presiding.
    Present: Senators Lautenberg, Boxer, Vitter, Klobuchar.

       OPENING STATEMENT OF HON. FRANK LAUTENBERG, U.S. 
              SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. This Subcommittee will come to order 
and the hearing will start.
    I want to just add a quick note, though, and that is that I 
am compelled to be on the floor of the Senate to manage a bill, 
so we may have to take a short recess until the Chairperson of 
the Committee gets here, Senator Boxer. We will try to move 
expeditiously, but we don't want to leave out things that are 
important.
    Thank you all for being here and helping us review what 
kind of progress we have made in getting drunk drivers off the 
road, and how to save even more people from dying a preventable 
death.
    Since 1984, the Federal Government has taken tough action 
to prevent senseless drunk driving deaths on our highways. Two 
of the most successful examples are the national minimum 
drinking age of 21; and the national .08 blood alcohol content 
standard for drunk driving. These tough laws have saved tens of 
thousands of lives.
    Though my children were a little annoyed with me because 
they were college age, I was proud to author the Age 21 law and 
pleased also that we have saved so many mothers, fathers, 
sisters, and brothers from the grief of losing a child because 
of that law.
    But even with these laws, our job isn't complete. Drunk 
driving remains an epidemic. Seventeen thousand victims still 
die each year in vehicle crashes involving alcohol. That is 41 
percent of all the highway deaths. In my home State of New 
Jersey, 341 of our residents died in alcohol-related crashes 
last year, a 20 percent increase over the year before.
    Despite these grim figures, some people want to roll back 
the lifesaving laws that we have put in place. It is hard to 
understand. I want to be clear. We will not be revisiting these 
well established and successful laws. Any attempt to diminish 
the effectiveness of these laws or subsequent laws will have to 
face a huge fight if they want to expose more of our young 
people, or more of our people. We talk primarily about young 
people here, but there are lots of not so young people who die 
on the highways as a result of alcohol and driving.
    We will be looking at head to what Government can do to 
protect more Americans from drunk drivers. Congress has got to 
take action to convince States to pass more effective laws to 
combat drunk driving. For example, not every State has tougher 
laws for repeat drunk drivers. Arrests and even convictions can 
pile up without repercussion.
    One news report tells the story of a man who was caught 
drunk driving 11 times and who never had his license taken 
away. Amazingly, there are many places in this Country where 
you can refuse to take a blood alcohol test even after causing 
a fatal crash, and the penalty is only the loss of a driver's 
license.
    Now, when it comes to better enforcement of laws, sanctions 
do work on States. When we offered incentives to States to pass 
the .08 blood alcohol laws, only three States took us up. But 
when we passed a sanction to withhold some of their Federal 
highway funding, 32 States changed their minds. So the proof is 
there.
    To prevent more injuries, we ought to make greater use of 
technology such as ignition interlocks that lock a car's 
ignition when a driver's blood alcohol level is too high. I 
look forward to hearing about those efforts.
    The bottom line is that drunk driving kills. Seventeen 
thousand American families a year who lost a loved one can 
testify to that.
    So I look forward to hearing from our witnesses about 
actions that Congress can take to further save lives on our 
roads.
    [The prepared statement of Senator Lautenberg follows:]

     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Today we will review the progress we have made in getting 
drunk drivers off the road, and how to save even more people 
from dying from a preventable tragedy. Since 1984, the Federal 
Government has taken tough action to prevent senseless drunk 
driving deaths on our roads.
    Two of the most successful examples are the national 
minimum drinking age of 21, and the national .08 blood alcohol 
content standard for drunk driving. These smart, tough laws 
have saved tens of thousands of lives. Though my children were 
a little annoyed, I was proud to author the ``age 21'' law--and 
am proud that we have kept so many mothers, fathers, sisters 
and brothers alive because of it. But even with these laws, our 
job is not complete.
    Drunk driving remains an epidemic. Seventeen-thousand 
victims still die each year in vehicle crashes involving 
alcohol. That's 41 percent of all highway deaths. In my home 
State of New Jersey, 341 of our residents died in alcohol-
related crashes last year--a 20-percent increase over the year 
before.
    Despite these grim figures, some people want to roll back 
the life-saving laws we have put in place. Let me be clear: We 
will not be revisiting these well-established and successful 
laws. Instead, we will be looking ahead to what the government 
can do to protect more Americans from drunk drivers.
    Congress must take action to convince states to pass more 
effective laws to combat drunk driving. For example, not every 
State has tougher laws for repeat drunk drivers. Arrests and 
even convictions can pile up without repercussion. One news 
report tells the story of a man who was caught driving drunk 11 
times--and who never lost his license.
    Amazingly, there are many places in this country where you 
can refuse to take a blood-alcohol test even after causing a 
fatal crash and the penalty is only the loss of a driver's 
license. When it comes to better enforcement of laws, sanctions 
on states work.
    When we offered incentives to states to pass .08 blood-
alcohol laws, only three took us up. But when we passed a 
sanction to withhold some of their Federal highway funding, 32 
states changed their minds.
    To prevent more injuries, we should make greater use of 
technology, such as ignition interlocks, that lock a car's 
ignition when a driver's blood alcohol level is too high. I 
look forward to hearing about those efforts. The bottom line is 
that drunk driving kills. Seventeen-thousand American families 
a year who have lost a loved one can testify to that.
    Today I look forward to hearing from our witnesses about 
actions Congress can take to further save lives on our roads.

    Now we are joined by Senator Klobuchar. Senator, I have a 
10:30 management on the floor on the transportation bill. So I 
wonder, would you be able to chair?
    Senator Klobuchar. I would love to, but I have the farm 
bill markup.
    Senator Lautenberg. OK. Would you like to make a short 
statement?
    Senator Klobuchar. I will make it very quickly.
    Senator Lautenberg. OK.
    Senator Klobuchar. One minute.

         OPENING STATEMENT OF HON. AMY KLOBUCHAR, U.S. 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman, and thank you 
for holding this critically important hearing and for your 
leadership on this issue.
    Simply put, your work in drunk driving, Senator Lautenberg, 
has saved lives. It has been over 20 years since your 
legislation made 21 the national drinking age. In that time, 
over 20,000 lives have been changed. Your legislation made our 
roads and our communities safer and for that we are all 
grateful.
    But there is so much work to be done, as each of our 
panelists will highlight. There are well over 16,000 alcohol-
related highway traffic deaths in the U.S. each year.
    In Minnesota, we have had some success in containing these 
hardcore drunk driving fatalities by being strict with 
enforcement and aggressive with prevention. As Hennepin County 
Attorney, I would say one of my, if not the proudest 
legislative accomplishment I had, and it took 2 years, was to 
pass Minnesota's felony DWI law. When I came into office, I 
realized we had felonies for things like stealing a cable TV 
cable and various theft of animals, but someone could have 20 
DWIs and it was still a misdemeanor and they really could only 
go to prison for one or 2 years, and in fact is was a county 
workhouse.
    Today in Minnesota, if you get four DWIs within 10 years, 
you are charged with a felony and face the possibility of 
prison time up to 7 years.
    Again, an example of why we had to do it, there was a man 
named Raymond Sherman. In his early 40's, he had more than 20 
DWIs on his record. When he was arrested when we had the felony 
DWI law in place, right near the Mall of America, he tested at 
well over the legal limit. What we found out when we looked 
back at his record was the last time he had gotten it, he said, 
well, you can't get me because Minnesota doesn't have a felony 
DWI. Well, we did get him the next time and he went to 5 years 
in prison.
    The goal here is not to put a bunch of people in prison, 
but it is to prevent them from going out and driving and 
drinking again. I have experience with this in my own life. My 
dad had three DWIs and it was the third DWI that really made 
him stop drinking, and his whole life has been turned around. 
He has been a successful journalist his entire life and is now 
very happy in his retirement, being sober and it has really 
turned him around. So I believe that strict rules can make a 
difference.
    I just want to leave you with one thought. One of our rural 
judges has embarked on a successful and innovative program in 
Minnesota for repeat drunk drivers. It is Judge James Denn, and 
he has been sentencing some repeat drunk driving offenders to 
staggered jail terms, allowing them to serve one third of their 
time immediately, one third a year later, and one third a year 
after that.
    Now, it doesn't work for everyone, but the idea is that in 
between those jail stints, if the offenders can prove that they 
have reformed, they can earn their way out of the remaining 
jail time. But if they get another DWI, they serve the full 
sentence. He has been doing this not necessarily with the ones 
I am talking about like Mr. Sherman, who has 20--it wouldn't 
work for him--but for some of the ones who have smaller numbers 
of DWIs.
    It is the use of effective monitoring and prevention 
programs such as staggered sentencing, ignition locks, vehicle 
impoundment, highly visible checkpoints and advertising 
campaigns, coupled with this strict kind of enforcement that we 
have started to do now the last few years in Minnesota that I 
believe has made a difference.
    I also want to thank the advocacy groups in our State that 
have been at our side. We had the most powerful testimony to 
get our law passed, which involved a man who had lost his son 
to a drunk driver, and a repeat drunk driver who had killed 
someone. When he got out of prison, the two of them went 
together and testified in favor of stricter drunk driving laws.
    So I believe in this kind of redemption, and I believe you 
get there by having incentives, but I also believe you need the 
strict enforcement.
    I also wanted to thank you for the .08 incentives. Our 
State was one of the last to do it. People where my relatives 
are from in Northern Minnesota were not that excited about it, 
I will tell you that. One of my favorite legislators actually 
took to our House floor and said, if you change the standard to 
.08, how will my constituents get home in the morning?
    [Laughter.]
    Senator Klobuchar. However, we have now turned around and 
we have it in place, and I think that would not have happened 
without having these kinds of incentives on the Federal level.
    So I want to thank you all for your good work, and 
especially Mr. Chairman, and if it is possible, I would love to 
fill in. You know how much I like to chair hearings, so if it 
works out, I will do it.
    Thank you.
    Senator Lautenberg. I just started to say before that when 
I wrote the law, two of my four children were in college and 
they said, Dad, you know, we would like to have a party, but we 
can't just serve Coca-Cola at our age, and they were 18 or so. 
I said, well, Pepsi will have to do. We are not going to permit 
that. Of course, now today when they have children, they sure 
don't want drunks on the road where we can avoid it.
    I am going to recess this session for now. I thank you all. 
You are excellent candidates for your testimony today.
    Senator Boxer will be here shortly. So forgive the delay, 
but other duties call and I have to do it, especially when the 
Majority Leader says so.
    Senator Klobuchar. Senator, if you would like, I could stay 
for 10 minutes if we want to get started.
    OK. Whatever you say, Mr. Chairman.
    [Recess.]
    Senator Boxer. [Presiding.] The Committee hearing will 
begin. I understand we had a couple of colleagues here. As you 
know, we have an insane schedule today which affected 
everybody's ability to be here. I myself just came in this 
morning back from California where I was very concerned about 
the devastation in my State. I thank everybody from all over 
the Country for caring and asking me about it. It looks like 
the winds have changed in our favor and we will be dealing with 
the aftermath for quite a while. But I am glad to be back here 
to be able to conduct this hearing.
    As you well know, Senator Lautenberg, to say he is 
passionate on the subject is an understatement. He has to 
manage a bill on the floor, the Amtrak bill.

         OPENING STATEMENT OF HON. BARBARA BOXER, U.S. 
              SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I thank you all for being here to discuss 
the effectiveness of Federal drunk driving programs. Alcohol-
related crashes are among the biggest highway safety challenges 
we face, accounting for 41 percent of overall traffic 
fatalities in 2006, 17,602 lives needlessly lost. Drunk driving 
causes thousands of deaths and injuries each year that could 
otherwise have been avoided, changing the lives of families and 
accident victims really forever.
    But the consequences of drunk driving are not limited to 
the families of those who are killed or injured. A 2002 study 
by NHTSA estimated that alcohol-related crashes cost the 
American public more than $114 billion. That is just in 1 year, 
the year 2000.
    And here we are struggling to find funds for children's 
health care. You know, we are having a problem, fighting over, 
you know, $30 billion, with $114 billion lost in 2000 alone. So 
we can't ignore this problem. The regulation of alcohol and its 
use by the operators of motor vehicles is largely left to the 
States. However, Congress has encouraged States to adopt 
legislation aimed at reducing drunk driving through the use of 
sanctions that withhold or transfer Federal funds and incentive 
grants that are given to States if they take certain actions.
    There are currently five different provisions in Federal 
law that either withhold Federal funds from States that would 
be available for the national highway system, InterState 
maintenance and surface transportation programs, or transfer a 
portion of these funds to a State's highway safety program. It 
will take a coordinated effort on behalf of the States and the 
Federal Government to address the problems of drunk driving.
    Drunk driving is a serious problem which has seen little 
improvement over the past decade. This hearing will help the 
Committee make the record as to what we are learning and what 
we are not learning. I look forward to working with the other 
members of the Subcommittee as we review this issue in 
anticipation of the next transportation bill, which as you all 
know will be coming next Congress.
    So we are grateful to the witnesses for being here, and I 
look forward to testimony. We will get right to it. Because of 
the loss of time, we are going to just start at 4 minutes and 
see if you can do that so we can have time to ask you 
questions.
    Senator Boxer. The Honorable Thomas Barrett, Deputy 
Secretary, U.S. Department of Transportation. Sir, we welcome 
you.

  STATEMENT OF HON. THOMAS J. BARRETT, DEPUTY SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Barrett. Madam Chairman, thank you. I am pleased to 
represent the Department this morning on this important safety 
issue. Secretary Peters takes this very seriously, as do I. And 
I know you do and the Committee does as well.
    Alcohol-impaired driving is a serious public health 
problem. As you know, there were over 13,000 deaths last year 
in which a driver or operator had a BAC above .08. As you 
indicated, Senator, this number has remained relatively flat 
for the past decade. This is not acceptable to the Department 
and we are working aggressively with State law enforcement 
partners, criminal justice partners, advocacy groups like MADD, 
to address what is a complex and tragic social issue.
    I also want to note we have just updated the driving under 
the influence model code to assist States in fashioning their 
laws. I want to thank Senator Lautenberg for his personal 
leadership on this issue.
    The program we have set at DOT calls for comprehensive 
solutions, education, strong laws, law enforcement, and 
suitable legal consequences for offenders. NHTSA is emphasizing 
high visibility law enforcement, support for improved 
adjudication of drunk driving cases, and technology to prevent 
impaired driving.
    We believe that these measures will be effective in 
reducing the numbers that we see. We also want to thank the 
more than 9,000 State law enforcement agencies that 
participated in our recently completed Labor Day national drunk 
driving crackdown. We could not be successful without their 
help.
    You may have heard the phrase ``Over the Limit. Under 
Arrest.'' Thanks to the support of Congress, the nationwide 
drunk driving enforcement crackdowns are supplemented by $18 
million of national advertising, $11 million over Labor Day and 
an additional $7 million purchase in December during the 
holiday season.
    NHTSA has also recently focused renewed attention on 
ignition interlocks. Studies show interlocks can reduce 
recidivism by as much as two thirds. However, currently only 
about 10 percent or about 100,000 offenders potentially 
eligible for the devices actually must use them.
    We have also convened a National Interlock Ignition Summit 
to develop recommendations from the criminal justice community 
for increasing the benefits of this technology. The agency is 
involved in developing guidance on model programs and curricula 
for educating judges and others on the benefits of expanded 
deployment of interlocks.
    As longer term countermeasures, we are pursuing more 
advanced technology and have established a cooperative research 
initiative with the automotive industry to lead to new 
technologies that would prevent impaired drivers from operating 
vehicles.
    I also want to note that the particularly tragic aspect of 
the drunk driving problem is impact on the youngest drivers. We 
believe it is essential that the 21 minimum drinking age be 
retained and strictly enforced. The model code that we 
developed notes zero tolerance for underage drinking and 
driving.
    Madam Chairman, the Department is committed to reducing 
alcohol-impaired driving problems, especially as it affects our 
youngest drivers and their families. Our plans include both 
shorter and longer term solutions to provide very aggressive 
steps to reduce the horribly tragic consequences we see in 
this.
    I thank you and I would be pleased to answer any questions 
when appropriate.
    [The prepared statement of Mr. Barrett follows:]

              Statement of Hon. Thomas J. Barrett, Deputy 
              Secretary, U.S. Department of Transportation

    Chairman Lautenberg, Ranking Member Vitter, and Members of 
the Subcommittee, I am pleased to be here today to represent 
the Department on this very important safety issue.
    Alcohol impaired driving is a serious public health 
problem. In 2006, there were more than 13,000 deaths in crashes 
in which a driver or motorcycle rider had a blood alcohol 
concentration (BAC) above 0.08 grams per deciliter of breath, 
the legal limit in every state. Following a decline through the 
1980's, the number of alcohol-related traffic deaths has 
remained at essentially the same level since the late 1990's. 
Further progress in reducing alcohol-related traffic deaths has 
been inhibited by a number of factors, including changes in the 
demographics of the driving population and a decline in the 
rate of enactment of State drunk driving laws as most States 
completed their basic legislative package.
    While impaired driving affects individuals of all ages, 
both genders and every area of the Nation, some groups have 
much higher involvement rates than others. Males comprise more 
than 80 percent of annual alcohol-related fatalities and those 
between ages 21 and 34 years of age are greatly over-
represented. Per licensed driver, the highest rate of 
involvement in a fatal crash with a BAC at or above 0.08 in 
2005 was for 21--24 year olds. The next highest rate was among 
18--20 year olds, despite the fact that every State has a 
minimum drinking age of 21 years. Alcohol-related fatality 
rates vary considerably among States. In 4 States, the 
proportion of all traffic deaths that are alcohol-related is 50 
percent or more, while in 7 other States the proportion is less 
than 35 percent.
    Most drivers with positive BAC who are involved in fatal 
crashes are well over the legal limit. In 2006, about 84 
percent of those with positive BAC were above the legal limit 
of 0.08, and the median among those with positive BAC was 0.15, 
nearly double the legal limit in every State.
    Impaired driving is a complex social issue and requires a 
comprehensive solution including education, strong laws, law 
enforcement, suitable legal consequences for offenders, and 
appropriate treatment for those with abuse or addiction 
problems. The National Highway Traffic Safety Administration 
(NHTSA) works with States to address a full range of 
countermeasures. However, the agency emphasizes several 
priority programs because of their effectiveness and the 
benefit of coordinated State implementation. These priorities 
include high visibility law enforcement, support for improved 
adjudication of drunk driving cases, and technology to prevent 
impaired driving.
    High visibility law enforcement has proven to be an 
especially effective means to reduce impaired driving crashes 
because it not only removes drunk drivers from the road, but 
also serves as a general deterrent, creating an increased 
perception of risk of arrest that discourages community members 
from drinking and driving. NHTSA coordinates nationwide high 
visibility impaired driving enforcement crackdowns twice 
annually, during the Labor Day and December holiday travel 
periods. During the Labor Day 2007 crackdown, about 9,000 law 
enforcement agencies participated by conducting highly visible 
enforcement operations such as sobriety checkpoints or 
saturation patrols. State Highway Safety Offices devoted a 
total of about $21 million to support these law enforcement 
activities.
    NHTSA supports the nationwide enforcement crackdowns with 
the purchase of national advertising on television, radio and 
other media, using the message Drunk Driving. Over the Limit. 
Under Arrest. to alert motorists of the increased enforcement 
activity and enhance the general deterrent effect. Using high 
visibility enforcement funds appropriated by Congress, NHTSA 
purchased $11 million of national advertising for the Labor Day 
period and plans an additional purchase in December. These 
advertisements are placed in media outlets that reach the 
demographic groups most likely to drink and drive. In addition 
to the national advertisements, State Highway Safety Offices 
spent about $16 million on paid advertising using the same 
theme and message.
    To provide financial support for States to conduct high 
visibility law enforcement and other impaired driving program 
activities, NHTSA administers a number of grant programs for 
States. Under SAFETEA-LU, the Section 410 impaired driving 
incentive program provides funds to States if they carry out 
specified impaired-driving countermeasures. These statutory 
activities include high visibility enforcement campaigns and 
programs that deter underage drinking. Over the past 2 years, 
NHTSA has provided over $200 million in Section 410 grant funds 
to support State impaired driving programs in every State, the 
District of Columbia and Puerto Rico.
    Several statutory provisions require States to have certain 
impaired driving laws in place. These requirements include laws 
that establish a minimum drinking age of 21 years, a per se 
impairment level of 0.08 BAC, harsher sanctions for repeat 
offenders, and restrictions on open alcohol containers in motor 
vehicles. States that do not enact and enforce these laws face 
the prospect of reduced or transferred highway construction 
funds. NHTSA is responsible for making the legal findings of 
noncompliance that would result in the Federal Highway 
Administration transferring or withholding of highway funds.
    NHTSA has recently focused attention on another impaired 
driving priority, alcohol ignition interlocks. Evaluations 
indicate that, while installed on offenders' vehicles, 
interlocks reduce recidivism by as much as two-thirds. Experts 
also agree that interlocks may offer even greater potential 
when integrated in a State impaired driving system as a means 
to link court and treatment functions. Currently about 100,000 
offenders are using ignition interlocks, a small proportion of 
those who could be eligible for this technology.
    In August, NHTSA Administrator Nicole Nason convened a 
national ignition interlock summit to develop recommendations 
from judges, prosecutors and treatment professionals for 
increasing the benefits of interlocks. The agency is now 
engaged in developing guidance on model interlock programs and 
curricula for educating judges, prosecutors and others on 
interlock technology and its benefits.
    As a longer term countermeasure against impaired driving, 
NHTSA is pursuing more advanced technology. The agency is 
currently establishing a cooperative research initiative with 
the automotive industry that could result in technology that 
would prevent an impaired driver from operating a vehicle. In 
order to be effective, any technology would need to be passive, 
requiring no deliberate driver action, and sufficiently 
accurate, reliable and affordable for widespread use. The 
timeframe for developing and deploying such technology is 
estimated to be 10--15 years.
    A particularly tragic aspect of the impaired driving 
problem is its impact on the youngest drivers. Nearly a quarter 
of deaths of drivers less than 21 years of age have a BAC of 
more than 0.08 despite the fact that it is illegal for these 
drivers to drink alcohol. In 2005, about 3,500 drivers younger 
than 21 years of age were killed in crashes, nearly 1,000 of 
whom had been drinking. Young drivers are especially vulnerable 
to the risks of impaired driving due to their inexperience both 
with driving and with drinking alcohol.
    While these young driver statistics are tragic, they are 
much improved from the situation 25 years ago, prior to 
enactment by all States of Age 21 Minimum Legal Drinking Age 
(MLDA) Laws. MLDA laws have proven to be one of the most 
effective impaired driving deterrents, resulting in nearly 
25,000 lives saved since 1982, according to NHTSA estimates.
    The scientific evidence behind MLDA laws is unequivocal. In 
2001, the Centers for Disease Control (CDC) conducted a review 
of 23 studies of the effect of changes in minimum drinking age 
laws that met strict standards of scientific rigor. The CDC 
review concluded that raising minimum drinking age laws results 
in a 16 percent decline in underage crashes, while lowering the 
minimum drinking age results in a 10 percent increase in 
crashes.
    More recent evidence comes from studies of a policy change 
in New Zealand, where the minimum drinking age was lowered from 
age 20 to 18 in 1999. A study of New Zealand data from before 
and after the change in drinking age was published last year. 
The study found that the rate of traffic crashes and injuries 
increased 12 percent for 18--19 year old males, and 14 percent 
for 15--17 year old males following the lowering of the 
drinking age. The change was even greater among females, with 
the rates increasing 51 percent for 18--19 year olds and 24 
percent for 15--17 year olds. The study concluded that raising 
New Zealand's minimum drinking age would prevent 400 serious 
injuries and 12 deaths among 15--19 year olds each year.
    There are clear physiological and behavioral reasons for 
maintaining and strictly enforcing MLDA laws. The National 
Institute on Alcohol Abuse and Alcoholism (NIAAA) of the 
National Institutes of Health reports that impaired driving is 
just one of the risks associated with underage drinking and 
that the total impact of alcohol on those under 21, including 
homicide, suicide and other injuries, amounts to approximately 
5,000 deaths per year. NIAAA studies point to the tendency of 
younger drinkers toward risky binge drinking, a greater 
tendency among those who begin drinking earlier to develop 
alcohol dependence at some point later in their lives, and a 
greater likelihood of young drinkers to engage in other risky 
behaviors, including drug use.
    The Department of Transportation is committed to reducing 
alcohol impaired driving, especially as it affects our youngest 
drivers and their families. We have set an ambitious goal to 
reduce the number of deaths in crashes where a driver or 
motorcycle rider had a BAC at or above 0.08 BAC to 0.48 per 100 
million vehicle miles traveled by 2008. Our plans for 
addressing the problem include both short and longer term 
solutions that together provide the most aggressive strategy 
feasible for reducing impaired driving and its tragic 
consequences.
    I would be pleased to answer any questions you may have.

    Senator Boxer. Thank you, sir.
    Our next speaker is Hon. Mark Rosenker, Chairman of the 
National Transportation Safety Board.
    When we finish this panel, I will turn to Senator Vitter 
for his opening statement.
    Honorable Mark Rosenker.

    STATEMENT OF HON. MARK V. ROSENKER, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Thank you and good morning, Madam Chairwoman, 
Ranking Member Vitter. Thank you for allowing me the 
opportunity to present testimony on behalf of the NTSB 
regarding oversight of the effectiveness of Federal drunk 
driving programs.
    While the Safety Board has testified before Senator 
Lautenberg on several occasions, we have not testified before 
this Committee. I thank you again for the opportunity to do so.
    Progress has been made at the Federal, State and local 
levels in reducing alcohol-related crashes, injuries and 
fatalities. In 1982, there were more than 26,000 alcohol-
related fatalities, almost 60 percent of all highway 
fatalities. We are now down to about 17,600 alcohol-related 
fatalities, or about 41 percent of the highway fatalities in 
general.
    Most of that progress, though, was achieved in the 1980's 
and the 1990's, likely attributable to implementation of the 
National Minimum Drinking Age Act and State passage of the age 
21 laws, along with administrative license revocation, sobriety 
checkpoints, mandatory seatbelt use laws, and public education 
campaigns on the dangers of impaired driving.
    We have been stuck, unfortunately, in a decade-long plateau 
where the number and percent of alcohol-related fatalities have 
not declined further. The Safety Board issued recommendations 
in 2000 aimed at eliminating hardcore drinking and driving as 
the means to further reduce the toll of impaired driving.
    The NTSB is particularly concerned with hardcore drinking 
drivers who are involved in about 54 percent of the alcohol-
related fatalities. The Board defines hardcore drinking drivers 
as individuals who drive with a blood alcohol content of .15 
percent or greater, or who are arrested for driving while 
impaired within 10 years of a prior DWI arrest.
    Drivers with a high BAC are at much greater risk of being 
involved in a fatal crash. The Insurance Institute for Highway 
Safety estimated that the relative fatality risk for drivers in 
single vehicle crashes with a high BAC is 385 times that of a 
zero BAC driver. For young male drivers between the ages of 21 
and 34, the risk is 607 times that of a sober driver.
    The American Psychological Association states that even one 
DWI offense is indicative of a substance abuse or a dependency 
problem. A high BAC or repeat DWI arrest supports the 
conclusion that the individual has an alcohol abuse problem and 
will continue dangerous driving practices unless significant 
countermeasures are imposed.
    From 1983 to 2005, more than 183,000 people died in 
hardcore drinking driving crashes. Impaired drivers persist in 
their behavior because they believe they won't get caught or 
convicted. That belief is based on reality. An individual it is 
estimated is driving on 1,000 drinking driving trips before 
being arrested.
    Senator Boxer. A thousand?
    Mr. Rosenker. Yes, ma'am.
    The hardcore drinking driving problem is complex. We need a 
comprehensive system of prevention, apprehension, punishment 
and treatment to reduce these crashes, injuries and fatalities. 
The Board's model program is derived from State programs that 
were proven effective in reducing alcohol-related crashes, 
injuries and fatalities, or recidivism. Some elements make the 
system work more efficiently. Only five States, unfortunately, 
have implemented a sufficient number of elements of the Board's 
program to close these recommendations, and I applaud the 
people of California because they are part of this program and 
it is working.
    With regard to age 21 laws, the Safety Board thought the 
minimum drinking age was resolved a quarter century ago. The 
change in the legal minimum drinking age has been one of the 
most extensively studied policy changes in our transportation 
history. All the rigorously drawn and peer-reviewed studies 
have concluded that lowering the drinking age increases both 
alcohol consumption and alcohol-related fatalities among young 
drivers, and raising the drinking age reduces consumption and 
fatalities.
    NHTSA estimates since 1975, age 21 laws have prevented 
almost 25,000 young people traffic deaths. Research and current 
data do not justify changing our recommendations. Motor vehicle 
crashes remain the leading cause of death for teenagers, and 
alcohol remains the leading drug of choice.
    Madam Chairwoman, that concludes my statement and I would 
be happy to answer any questions.
    [The prepared statement of Mr. Rosenker follows:]
             Statement of Hon. Mark V. Rosenker, Chairman, 
                  National Transportation Safety Board
    Good morning, Chairman Lautenberg, Ranking Member Vitter, and 
Members of the Subcommittee. My name is Mark Rosenker, and I am the 
Chairman of the National Transportation Safety Board. I want to thank 
you for allowing me the opportunity to present testimony on behalf of 
the Safety Board regarding the oversight of the effectiveness of 
Federal drunk driving programs. While the Safety Board has testified 
before Senator Lautenberg on several occasions, we have not testified 
before this Committee. Thank you again for the privilege.
    As you know, the Safety Board is an independent agency charged by 
Congress with investigating every civil aviation accident in the United 
States and significant accidents in railroad, highway, marine, pipeline 
and hazardous materials in order to determine the causes and issue 
safety recommendations to prevent future accidents.
    Each year, there are between 42,000 and 44,000 highway fatalities, 
more than any other mode of transportation. Of that number, roughly 40 
percent of highway accidents is attributed to alcohol related deaths. 
For that reason, the Safety Board has had a long history of 
recommending action to reduce alcohol-related fatalities, injuries, and 
crashes. Many of these recommendations were issued in 1983, 1984, and 
1989 as a result of our investigation of the Carrollton, Kentucky 
church activity bus crash which is still the worst drunk driving crash 
in the nation's history. Addressing impaired driving has been on our 
list of Most Wanted Safety Recommendations since its inception in 1990.
    We have made a lot of progress at the Federal, state, and local 
level in reducing the alcohol-related crashes, injuries, and 
fatalities. In 1982, there were 26,173 alcohol-related fatalities, 
almost 60 percent of all highway fatalities. We are now down to 17,602 
alcohol-related fatalities, or 41 percent of highway fatalities. Most 
of that progress was achieved in the 1980's and early 1990's, likely 
attributable to implementation of the National Minimum Drinking Age Act 
and State passage of Age 21 laws, administrative license revocation, 
sobriety checkpoints, mandatory seat belt use laws, and public 
education campaigns on the dangers of impaired driving. We have been 
stuck, however, in a decade-long plateau where the number and percent 
of alcohol-related fatalities have not declined further. The Safety 
Board issued recommendations in 2000 aimed at eliminating hard core 
drinking driving as means to further reduce the toll of impaired 
driving.
                     the hard core drinking driver
    The Safety Board is particularly concerned with hard core drinking 
drivers, who are involved in about 54 percent of alcohol-related 
fatalities. The Board defines hard core drinking drivers as individuals 
who drive with a blood alcohol concentration (BAC) of 0.15 percent or 
greater, or who are arrested for driving while impaired (DWI) within 10 
years of a prior DWI arrest.
    Drivers with a high BAC, 0.15 percent or greater, have consumed 
large amounts of alcohol, much more than is generally considered to be 
social or responsible drinking. High-BAC offenders are also likely to 
be repeat drinking drivers. Research has found that drivers with a high 
BAC are at a substantially greater risk of being involved in a fatal 
crash. The Insurance Institute for Highway Safety has estimated that 
the relative fatality risk for drivers in single-vehicle crashes with a 
high BAC is 385 times that of a zero-BAC driver and for male drivers 
the risk is 607 times that of a sober driver.
    The Safety Board defines repeat offenders as individuals who are 
arrested for a DWI offense within 10 years of a prior DWI arrest. The 
Board specifies arrest, not just conviction, because DWI offenders are 
not always convicted of DWI violations. Their charges may be reduced to 
a lesser, non-alcohol-related offense or erased. The original DWI could 
not be used as a prior offense for the court to impose more rigorous 
measures for a subsequent offense. The American Psychological 
Association Diagnostic and Statistical Manual states that even one DWI 
offense is indicative of a substance abuse and/or dependency problem. A 
high-BAC or repeat DWI arrest, therefore, supports the conclusion that 
the individual has an alcohol abuse problem and will continue to engage 
in dangerous driving practices unless significant countermeasures are 
imposed.
    From 1983 through 2005, more than 183,000 people died in crashes 
involving hard core drinking drivers. Most experts agree that impaired 
drivers persist in their behavior because these drivers believe that 
they will not be caught and/or convicted. That perception is based on 
reality. NHTSA estimates that on average, an individual makes about 
1,000 drinking driving trips before being arrested.
    One of the accidents investigated by the Safety Board occurred on 
October 23, 1999 in Irving, Texas. A Chevrolet pickup truck driver was 
merging onto a highway when it veered to the south, crossed over three 
lanes and a shoulder, and struck the guardrail. The collision with the 
guardrail caused the truck to become airborne and travel 98 feet before 
striking the ground in the center median. It then continued traveling 
for an additional 97 feet and collided with a tractor-semitrailer, 
which eventually crashed through a guardrail, and collided with a 
bridge pillar. A post crash fire ensued, destroying the tractor-
semitrailer and damaging the bridge structure. The debris from the 
initial collision struck a Ford pickup truck and a Cadillac during the 
accident sequence. The tractor-semitrailer truck driver was killed. The 
Chevrolet pickup truck driver was found partially ejected and was also 
killed. He was an unlicensed driver with a BAC of 0.29 percent.
    The problem of hard core drinking drivers is complex; no single 
countermeasure by itself appears to reduce recidivism and crashes 
sufficiently. We need a comprehensive system of prevention, 
apprehension, punishment, and treatment to reduce the crashes, 
injuries, and fatalities caused by these drivers.
    The Safety Board's model program includes such countermeasures as:

    Sobriety Checkpoints: States must take measures to convince 
motorists that there is a strong likelihood that they will be caught, 
thereby deterring impaired driving before an arrest. Well-publicized 
and frequent sobriety checkpoints are a key component of deterrence 
because they increase the perception among drivers who potentially 
would drive impaired that they will be caught.
    Vehicle Restrictions: States should authorize vehicle restrictions 
such as license plate impoundment, vehicle immobilization, vehicle 
impoundment, vehicle forfeiture, and ignition interlocks. Most can be 
administratively imposed. Vehicle restrictions substantially decrease 
the opportunity for hard core drinking drivers to operate vehicles 
illegally.
    Habitual Offender Tally (HOT) Sheet Programs: States should promote 
this special enforcement program where the State licensing agency, on a 
regular basis, provides lists of drivers whose licenses have been 
suspended or revoked for alcohol-related offenses. Law enforcement 
agencies then use these lists to identify drivers who subsequently 
operate vehicles without a license.
    Zero BAC Limits: States should require DWI offenders, upon 
conviction, to operate vehicles without any alcohol in their system. 
Such a provision forces DWI offenders to demonstrate that they can 
operate a vehicle legally and separate their drinking from their 
driving.
    High BAC Limits: For those offenders arrested with a BAC of 0.15 
percent or higher, States should impose penalties and employ 
countermeasures similar to those penalties and countermeasures used for 
repeat offenders. These drivers require strong intervention.
    Confinement Alternatives: States should implement alternatives to 
traditional jail confinement, such as jail-treatment facilities, home 
detention with electronic monitoring, and intensive supervision 
probation. These alternatives, which reduce prison overcrowding, allow 
offenders to remain productive members of society and address any 
underlying alcohol problem, offer greater benefit than the traditional 
confinement alternative, community service, which has not been proven 
to reduce crashes.
    Plea Bargaining Restrictions: States should prohibit DWI offenders 
from pleading to non-alcohol-related offense, or at least include 
information on the original arrest/charge in the offenders' criminal 
record. This provision would help ensure that prosecutors and judges 
know when they are dealing with a hard core drinking driver who may 
require countermeasures beyond the traditional punishment of a short 
jail term and a fine.
    Diversion Elimination: Diversion is a system by which an offender's 
record is wiped clean if the offender complies with certain 
requirements. States should eliminate diversion as an option for DWI 
offenders, again, because it makes it that much harder to identify and 
develop appropriate rehabilitation measures for hard core drinking 
drivers.
    Administrative License Revocation: States should authorize 
administrative license revocation, which gives a law enforcement 
officer the authority, on behalf of the State licensing agency, to 
confiscate the license of any driver who either fails or refuses to 
take a chemical breath test. The driver then receives a temporary 
license that is valid for a short, specified period of time. During 
that time, he or she may seek an administrative hearing--independent of 
any criminal proceedings.
    10-Year Look-Back Period: The likelihood of arresting, let alone 
convicting, a person even once for impaired driving is small. For 
penalty enhancement, the length of time a State will ``look back'' to 
determine how many convictions an offender has should be at least 10 
years.
    Individualized Court-Based Programs: States should develop and fund 
programs, such as a DWI court, that allow judges to tailor the 
sanctions to an offender's circumstances on a case-by-case basis.
    Attached for your review is a summary of the model elements 
recommended by the Safety Board to address hard core drinking driving. 
The Board's model program is derived from programs operated in the 
States that have been shown through research to reduce alcohol-related 
crashes, injuries, and fatalities or have been shown to reduce 
recidivism. Some elements of the model program aid the workings of the 
impaired driver control system. Only five states have implemented a 
sufficient number of elements for the Board to close this 
recommendation to them.
                                 age 21
    The issue of the minimum drinking age has recently been in the 
news. This is an issue we thought was solved a quarter century ago 
through extensive congressional, Federal, and State action.
    The change in the legal minimum drinking age has been one of the 
most extensively studied policy changes in our transportation history. 
All of the rigorously drawn and peer-reviewed studies have essentially 
come to the same conclusion; lowering the legal drinking age increases 
both alcohol consumption and alcohol-related fatalities among young 
drivers and raising the drinking age reduces consumption and 
fatalities.
    In 2005, 28 percent of teen drivers killed in traffic crashes had a 
positive BAC, and 74 percent were unrestrained by safety belts. Teen 
drivers (age 15 through 20) made up slightly more than 6 percent of the 
driving population. But although this population is not allowed to 
drink, almost 11 percent of alcohol-related fatalities (1,800 people) 
still involved a teen driver with a positive BAC. This is down from the 
20 percent involvement we had in 1982. The National Highway Traffic 
Safety Administration estimates that since 1975, Age 21 laws have 
prevented almost 25,000 traffic deaths.
    Research and current data do not justify changing the Board's 
recommendations. Motor vehicle crashes remain the leading cause of 
death for teenagers, and alcohol remains the leading drug of choice.
    Mr. Chairman, that concludes my statement and I would be happy to 
answer any questions you may have.
                hard core drinking driver model program
     Sobriety checkpoints (frequent, statewide)
     Vehicle restrictions

         License plate actions (impoundment, confiscation, etc.)
         Vehicle immobilization
         Vehicle impoundment
         Vehicle forfeiture
         Ignition interlocks (court-ordered and administrative)

     State and community cooperative enforcement programs for driving 
while suspended/revoked/unlicensed
     Zero BAC for DWI offenders
     Aggravated offense for high BAC (0.15 or greater)
     Alternatives to confinement

         Home detention with electronic monitoring
     Intensive supervision probation
         Jail-treatment facilities (for multiple DWI offenders)
         Eliminate community service (does not reduce recidivism)

     Plea bargaining restrictions

         Prohibit lessening of DWI offense to non-alcohol-related 
        offense
         Require reasons for DWI charge reduction to be entered into 
        public record

     Eliminate diversion programs that allow erasing, deferring, or 
otherwise purging the DWI offense record, or that allow the offender to 
avoid license suspension
     Administrative license revocation for BAC test failure and 
refusal
     10 year DWI record retention and offense enhancement period
     Individualized court-based sanction programs with frequent 
offender contact, unannounced testing, mandatory assessment, treatment, 
and long-term follow-up

    ``Actions to Reduce Fatalities, Injuries, and Crashes Involving the 
Hard Core Drinking Driver,'' June, 2000.

    Senator Boxer. Thank you for your testimony.
    Honorable Calvin Scovel, welcome. Mr. Scovel is the 
Inspector General at the U.S. Department of Transportation.


STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Madam Chairman, Ranking Member Vitter, thank 
you for the opportunity to testify today on the effectiveness 
of Federal drunk driving programs. This Subcommittee has played 
a key role in passing significant legislation to reduce 
alcohol-impaired crashes and lessen their emotional toll and 
costs.
    Curbing drunk driving is key to reducing all highway 
deaths. In 2006, over 42,600 highway traffic deaths occurred in 
the United States. Over 17,600, or about 41 percent, were 
alcohol-related, almost the same as in 2005. No appreciable 
improvement in reducing the total number of fatalities can 
occur unless alcohol-related fatalities also drop.
    The Administration and Congress recognize the seriousness 
of this problem and have provided significant resources to 
counter alcohol-impaired driving. We estimate that States will 
expend more than $1 billion in grants and penalty transfers 
through TEA-21, the prior surface transportation authorization 
law. SAFETEA-LU, the current law, provides further resources, 
most notably $555 million for grants dedicated solely to 
reducing alcohol-impaired driving.
    To ensure the wise use of this funding will require three 
things: good laws, well-run State traffic safety programs, and 
effective leadership from NHTSA. We realize that impaired 
driving is a complex problem with no simple solution. 
Accordingly, our ongoing work focuses on providing NHTSA and 
the States with better tools such as improved performance 
measures to oversee and implement safety programs aimed at 
impaired driving.
    My statement today concentrates on three areas: first, 
identifying key strategies. Our work found significant 
agreement on specific strategies that are most promising. State 
and Federal officials identified sustained enforcement of 
existing laws and effective prosecution and full application of 
available sanctions as key strategies of a successful program 
for countering alcohol-impaired driving.
    Best practices for carrying out these strategies in the 
States we reviewed included using fines to support enforcement 
efforts and streamlining the grant process for local 
communities. Challenges identified for fully implementing these 
strategies included lengthy arrest procedures and State-
specific restrictions on sobriety checkpoints.
    NHTSA has issued guidelines to carry out these key 
strategies, but better tools are needed to more effectively 
implement them.
    Second, effectively implementing key strategies with better 
performance measures. NHTSA could better measure the success of 
key strategies if States used better performance measures. For 
example, State officials and NHTSA agree on the use of 
sustained enforcement, and NHTSA defined the strategy as a 
sobriety checkpoint or saturation patrol conducted weekly in 
areas where 60 percent or more of fatalities occur. We found, 
however, that State plans and reports didn't use this 
definition to measure sustained enforcement. As a result, the 
degree to which the strategy was used, and thus its 
effectiveness, could not be determined.
    Third, action NHTSA needs to take with the States to 
improve performance measures. Currently, each State is 
responsible for developing performance measures tailored to its 
specific safety challenges. NHTSA cannot mandate performance 
measures. However, NHTSA can exercise its leadership with 
States and in response to our March, 2007 audit, NHTSA agreed 
to take the lead to work with States and other key stakeholders 
such as the Governors Highway Safety Association, to improve 
performance measures for alcohol-impaired driving. 
Specifically, it agreed to work with the States over a 3-year 
period to develop improved performance measures, encourage the 
use of those measures, and modify its own State reviews to see 
if these measures are adopted and utilized.
    NHTSA must act with a greater sense of urgency. While we 
support the actions planned by NHTSA, given the importance of 
this issue, NHTSA must work with its State partners more 
aggressively to accomplish these actions in advance of the 3-
year period scheduled.
    Prompt action will provide more timely information on the 
degree to which States are using limited Federal resources to 
carry out the key strategies identified. Moreover, these steps 
will benefit State programs by providing data the States can 
use to promote best practices and identify and correct the 
challenges that States face in implementing laws designed to 
reduce alcohol-impaired driving.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or members of the 
Subcommittee may have.
    [The prepared statement of Mr. Scovel follows:]

           Statement of Hon. Calvin L. Scovel III, Inspector 
               General, U.S. Department of Transportation

    Chairman Lautenberg, Ranking Member Vitter, and members of 
the subcommittee, thank you for the opportunity to testify 
today on the effectiveness of Federal drunk driving programs. 
We are pleased to discuss our past and ongoing work in this 
important area. We recognize the Chairman's long-standing role 
in passing significant legislation designed to reduce alcohol-
impaired crashes and lessen the emotional toll and significant 
costs these tragic deaths cause to the victim's families and 
the Nation as a whole. Our work has focused on ensuring the 
effective implementation of these laws--work that we believe 
complements the efforts of the Committee and of the other 
witnesses here today.
    The Department's efforts to curb drunk driving are a key 
component in its overall work to reduce highway deaths. In 
2006, over 42,500 highway traffic deaths occurred in the United 
States--the 17,602 alcohol-related highway traffic deaths 
accounted for about 41 percent of those reported fatalities. 
The number of alcohol-related fatalities essentially remained 
unchanged from the 17,590 alcohol-related fatalities in 2005. 
(A detailed breakout on alcohol-related fatalities by State 
through 2006 is in the Appendix to this statement.)
    In addition to reducing the overall number of highway 
fatalities, a reduction in alcohol-related crashes would yield 
significant monetary savings, as the National Highway Traffic 
Safety Administration (NHTSA) estimates that these crashes cost 
the Nation over $100 billion annually. Figure 1 shows traffic 
fatality trends for all traffic deaths and for alcohol-related 
fatalities from 2000 through 2006.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Recognizing the seriousness of this problem, the 
Administration and Congress have provided significant resources 
to counter alcohol-impaired driving.

     We estimate that appropriations authorized by the 1998 
Transportation Equity Act for the 21st Century (TEA--21) will 
result in states' expending $1.1 billion in Federal resources 
provided through grants and fund transfers for alcohol-impaired 
driving programs.
     Further significant resources were authorized in August 
2005 by the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU). 
Most notably, SAFETEA-LU increased funding for the grant 
program dedicated solely to reducing alcohol-impaired driving 
to $555 million and also increased funding for grants that are 
not dedicated solely to reducing alcohol-impaired driving but 
which can be used, in part, for these efforts.

    Ensuring the effective use of this funding requires good 
laws, well-run State traffic safety programs, and effective 
leadership from NHTSA. We realize that impaired driving is a 
complex problem, with no simple solution. Accordingly, our 
recent\1\ and ongoing work focused on providing NHTSA and the 
states with better tools (such as improved performance 
measures) with which to oversee and implement safety programs 
aimed at impaired driving. We believe that prompt 
implementation of our recommendations by NHTSA and its State 
partners will help ensure that key strategies for countering 
alcohol-impaired driving are more effectively carried out.
---------------------------------------------------------------------------
    \1\OIG Report Number MH-2007-036, ``Audit of the National Highway 
Traffic Safety Administration's Alcohol-Impaired Driving Traffic Safety 
Program,'' March 5, 2007. OIG reports and testimonies can be found on 
our website: www.oig.dot.gov.
---------------------------------------------------------------------------
    My statement today concentrates on three areas:
    First, key strategies identified for countering alcohol-
impaired driving. Our work found significant agreement across 
State and Federal jurisdictions on what strategies are most 
promising. State and Federal officials identified sustained 
enforcement of existing laws and effective prosecution and full 
application of available sanctions as key strategies of a 
successful program for countering alcohol-impaired driving. 
States identified a number of best practices for carrying out 
these strategies, including using fines to support enforcement 
efforts and streamlining the grant process for local 
communities. On the other hand, states identified individual 
challenges with fully implementing these strategies, such as 
lengthy arrest procedures and state-specific restrictions on 
sobriety checkpoints. NHTSA has published and provided to the 
states guidelines on carrying out key strategies for countering 
impaired driving; but better tools are needed to more 
effectively implement these strategies.
    Second, effectively implementing key strategies with better 
performance measures. NHTSA could better measure the 
effectiveness of key strategies if states included in their 
annual plans and reports more meaningful performance measures. 
For example, State officials and NHTSA agreed on the use of 
sustained enforcement--a strategy involving regular enforcement 
events, such as sobriety checkpoints or saturation patrols in 
high-risk areas. However, State plans and reports did not 
always detail the measures and data needed to assess the 
implementation of this strategy. As a result, the degree of 
progress, or lack of progress, this key strategy was having on 
the state's drunk-driving problem could not be determined.
    Third, specific actions NHTSA needs to take, in concert 
with the states, to improve performance measures. Federal 
regulations place responsibility on each State to develop 
performance measures that are tailored to its specific safety 
challenges. Thus, NHTSA cannot mandate those performance 
measures. However, NHTSA can exercise its leadership with 
states and other key stakeholders, such as the Governors 
Highway Safety Association, to improve performance measures for 
alcohol-impaired driving and other traffic safety areas.
    As a result of our audit work regarding alcohol-impaired 
driving, NHTSA has agreed to take a number of specific actions. 
These include working with the states to develop improved 
performance measures that communicate the degree to which key 
strategies are being implemented. NHTSA also agreed to 
encourage states to use this guidance; and it has committed to 
overseeing the degree to which these measures are adopted and 
used. Our ongoing work also shows the potential for improving 
performance measures for all traffic safety programs that NHTSA 
is responsible for, such as improving motorcycle safety.
    We believe that the states and NHTSA's actions, if carried 
out, would provide states with better tools to judge their 
performance and would allow NHTSA to make valid comparisons 
across states. These actions would also enhance public 
accountability for programs to counter alcohol-impaired driving 
and other traffic safety problems by providing stakeholders 
with the information on the degree to which states are carrying 
out key strategies as they expend resources provided by 
Congress.
    The balance of my statement provides further details on 
these three areas.

               KEY STRATEGIES IDENTIFIED FOR COUNTERING 
                        ALCOHOL-IMPAIRED DRIVING

    Our March 2007 audit reported on 10 state\2\ programs 
implemented to counter alcohol-impaired driving under the 
Transportation Equity Act for the 21st Century (fiscal years 
1998 through 2005). Our work did not assess the impact that 
laws or sanctions had on the states. Rather, we concentrated on 
what the states had done to implement their programs.
---------------------------------------------------------------------------
    \2\California, Connecticut, Ohio, Illinois, Missouri, New Jersey, 
New Mexico, New York, Texas, and South Carolina were selected for 
review based on 2003 data.
---------------------------------------------------------------------------
    State officials attributed the success of their alcohol-
impaired driving programs to a number of factors, but two key 
strategies emerged as prevalent: (1) sustained enforcement of 
laws and (2) effective prosecution with full application of 
available sanctions. Other prevalent strategies we identified 
addressed educational and medical aspects.
    A sustained enforcement strategy focuses on high police 
visibility through sobriety checkpoints or saturation 
patrols\3\ and media efforts to raise public awareness. We were 
not able to make valid comparisons across states on the 
implementation of this strategy because the performance data 
were not available. However, we did note an array of best 
practices for achieving a sustained enforcement strategy in all 
states. For example, enforcement programs were provided steady 
funding, local community needs were addressed, and arrest 
procedures were streamlined. To illustrate this, presented in 
table 1 are examples of best practices reported in five states 
with low alcohol-fatality rates visited during our review.
---------------------------------------------------------------------------
    \3\Saturation patrols are coordinated law enforcement efforts in 
locations known to have high concentrations of alcohol-related arrests, 
crashes, injuries, or fatalities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Our work also highlighted the fact that more needs to be 
done to improve the use of a sustained enforcement strategy. As 
demonstrated in table 2, states we reviewed reported challenges 
in carrying out the strategy. Specifically, some states 
reported their inability to fund all requests for police 
patrols, which either produced gaps in enforcement or decreased 
the states' ability to target areas with a higher incidence of 
alcohol-impaired driving. Some states also noted lengthy arrest 
procedures that increased the cost of making arrests, decreased 
the number of offenders arrested during peak alcohol-impaired 
driving periods, and acted as a disincentive for police to make 
---------------------------------------------------------------------------
arrests.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In the other key strategy, ensuring that offenders were 
convicted and sanctions were applied,\4\ all states we reviewed 
reported challenges. Some officials perceived that ineffective 
prosecution and the states' failure to apply sanctions against 
those convicted of alcohol-impaired driving were weakening 
deterrent effects. For example:
---------------------------------------------------------------------------
    \4\According to NHTSA, one aspect of effective prosecution depends 
on the involvement of well-trained police officers and effective 
prosecutors. Another aspect is the application of sanctions as 
determined by an adjudicating official.
---------------------------------------------------------------------------
     A safety official expressed concern that judges imposed 
court supervision against guilty parties instead of fines or 
penalties.
     Officials reported difficulty in preventing individuals 
from driving with a revoked or suspended license and in 
identifying repeat offenders.

    To address these challenges, some states trained 
prosecutors and educated judges regarding applicable laws; 
tried cases in courts specializing in alcohol-impaired driving; 
and established a prosecutor liaison responsible for addressing 
questions on the enforcement strategy from prosecutors 
throughout the state.
    The states we reviewed also applied educational and medical 
strategies.\5\ However, in contrast to the key strategies of 
sustained enforcement of laws and effective prosecution with 
full application of sanctions, the states reported on these 
strategies less frequently. In the area of educational 
initiatives, each State provided some form of educational 
program on alcohol abuse at elementary schools, secondary 
schools, and colleges.
---------------------------------------------------------------------------
    \5\According to NHTSA, medical strategies include medical 
screening, which consists of a primary or emergency room physician 
conducting short interviews with patients to screen for alcohol 
problems and to discuss the adverse effects of alcohol abuse and 
possible treatments. One State reported that it was actively exploring 
the implementation of medical screening in emergency rooms. Additional 
medical strategies advocated by NHTSA included offender treatment and 
rehabilitation.
---------------------------------------------------------------------------
    The medium through which schools implemented the strategy 
varied not only by state, but also by schools in a particular 
state. For example, states provided education material in 
public forums and in schools; used police officers to make 
presentations to elementary and secondary school students; held 
mock alcohol-impaired driving trials at schools or had students 
witness actual court proceedings; had convicted offenders, 
victims of alcohol crashes, or surviving family members of 
crash victims address students; and conducted information 
sessions on college campuses.
    Finally, our audit noted that officials in all states 
reviewed reported that the resources provided under TEA-21 had 
benefited their efforts. States used this money on activities 
such as providing overtime pay for police to carry out 
enforcement efforts.

             EFFECTIVELY IMPLEMENTING KEY STRATEGIES WITH 
                      BETTER PERFORMANCE MEASURES

    In 2006, the overall rate of highway fatalities per 100 
million vehicle miles traveled declined slightly to 1.42, while 
the fatality rate for alcohol-related crashes with the highest 
blood alcohol concentration (.08 or above) remained flat. The 
Department's goal is to reach an overall highway fatality rate 
of 1.0 by 2011. As shown in figure 2, the Department needs to 
move quickly and effectively if it is to reach its goal by 
2011. No appreciable improvement in reaching the Department's 
goal of reducing overall fatalities can occur unless alcohol-
related fatalities also drop.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Better performance measures addressing the key strategies 
identified would help target resources to the areas most likely 
to lead to future reductions in alcohol-related traffic 
fatalities. States are required\6\ to include performance 
measures in their annual reports and evaluations on traffic 
safety initiatives funded through Federal resources. 
Accordingly, it is the states' responsibility to develop the 
specific measures. Our work has found that the states' plans 
and reports do not include measures showing the degree to which 
they carry out key strategies for countering alcohol-impaired 
driving. NHTSA should prompt the states to include in their 
annual plans and reports more meaningful performance measures.
---------------------------------------------------------------------------
    \6\Title 23, Code of Federal Regulations, Part 1200.
---------------------------------------------------------------------------
    For example, the Highway Safety Plans and Annual Evaluation 
Reports for the 10 states we reviewed did not include a measure 
addressing the degree to which the states had carried out 
sustained enforcement. NHTSA defined this strategy as a 
sobriety checkpoint or a saturation patrol, conducted weekly in 
areas of the State where 60 percent or more of fatalities 
occur. It will be particularly important for NHTSA to verify 
states' performance regarding sustained enforcement because 
SAFETEA-LU requires states to provide assurances that they will 
support sustained enforcement of impaired driving laws as a 
condition for receiving certain highway traffic safety grants.
    Regarding effective prosecution, neither NHTSA nor 9 of the 
10 states we reviewed had established a specific gauge to 
measure the states' success. The one state, South Carolina, did 
include a performance-related measurement in the form of a 
conviction rate under grants designed to increase the number of 
successful convictions.
    Table 3 illustrates the potential benefits of improved 
performance measures addressing the key strategies identified 
by State and Federal officials and includes elements of the 
sustained enforcement definition NHTSA has set forth.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Our ongoing work on NHTSA's oversight of State highway 
safety programs has also identified areas for improvement in 
performance measures, such as a mismatch between performance 
measures used in the State plans and those in the annual 
reports. For example, one state's performance plan measured the 
number of alcohol-related fatal crashes but its annual 
performance report measured the alcohol-impaired driving rate. 
This makes it difficult to determine whether the State had made 
progress in reaching its goal.
    The need for improving performance measures in other 
traffic safety programs was also found. For example, one 
state's performance plan did not include a measure for reducing 
the number of motorcycle fatalities. The state's annual report 
identified a general measure for reducing motorcycle fatalities 
but the measure did not identify a specific target. This is an 
important area given that the number of motorcycle deaths 
increased nationwide by 5.1 percent in 2006.
    While we recognize the autonomy granted to states to 
formulate performance measures and plans tailored to their 
specific needs, NHTSA's leadership in promoting the 
establishment and consistent use of improved performance 
measures would allow the states and NHTSA to better determine 
the effectiveness of key strategies. This in turn would give 
both the impetus to adjust programs and the application of 
resources as necessary.

  SPECIFIC ACTIONS FOR NHTSA TO TAKE, IN CONCERT WITH THE STATES, TO 
                      IMPROVE PERFORMANCE MEASURES

    In responding to our March 2007 audit, NHTSA agreed to take 
a number of steps that would provide better tools for assessing 
the degree to which states are carrying out key strategies to 
combat alcohol-impaired driving. We would encourage the timely 
completion of these actions in advance of NHTSA's proposed 3-
year time period.
    NHTSA noted that carrying out our recommendations would 
allow it and the states to better determine the effectiveness 
of key strategies and adjust the states' Highway Safety Plans 
as necessary. NHTSA officials also noted challenges posed, such 
as states experiencing difficulties with consistently 
collecting the needed data. Despite these challenges, NHTSA 
agreed to take the lead in working with states and other key 
stake holders, such as the Governors Highway Safety 
Association, to improve performance measures for alcohol-
impaired driving. Specifically, it agreed to:
     Work in coordination with the states to develop 
performance measures to use in carrying out the key strategies 
identified for countering alcohol-impaired driving. NHTSA 
committed to initiating this work in 2007 and completing it by 
2009.

     Provide the recommended measures to the states by March 
2010.
     Modify the checklists its regional staff used when 
reviewing State safety plans and reports, to include checks on 
the use of and reporting on the performance measures. All this 
would be accomplished after NHTSA develops the recommended 
measures.

    NHTSA must act with a greater sense of urgency. While we 
support the actions planned by NHTSA, given the importance of 
the issue, NHTSA should work with its State partners more 
aggressively to accomplish these actions in advance of the 3-
year time period scheduled. Prompt action will provide more 
timely information on the degree to which states are using 
limited Federal resources to carry out the key strategies 
identified. Moreover, these steps would benefit State programs 
by providing data the states can use to promote best practices, 
and identify and correct the challenges states face in 
implementing laws designed to reduce alcohol-impaired driving.
    Mr. Chairman, that concludes my statement. I would be 
pleased to address any questions that you or other Members of 
the Subcommittee might have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you very much, sir.
    Senator Vitter, would you like to make an opening 
statement?

         OPENING STATEMENT OF HON. DAVID VITTER, U.S. 
              SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair. I will make a brief 
one.
    Certainly, I applaud us having this hearing. It is a very, 
very important topic. We made significant strides at reducing 
drunk driving and drunk driving fatalities with changes the 
legal drinking age, but we have sort of hit a plateau, largely, 
since then.
    As with a lot of problems, the work gets tougher the 
further along the curve you go. And so I think we need to re-
group, which we are doing here, and your work is doing, to 
figure out those somewhat more subtle or complicated ways to 
bust through that plateau and go even lower in terms of 
reductions.
    It is still a problem in my State, where 475 people lost 
their lives last year to drunk driving. I think we are doing 
some things right in my State, and I am encouraged by that, 
like the fact that we recently passed ignition interlock 
legislation for the first time, but we have other work we have 
to do. Certainly, get rid of the open container law which 
allows for open containers.
    So I am very interested to hear all of your thoughts about 
how we do this in a partnership with States and others, and 
what specifically the best, most productive Federal role is.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    I just want to hone in on the Inspector General's points. I 
just want to compliment you, sir, because you are very direct 
and sometimes we don't get that, so I really appreciate it.
    And so I guess I need to talk with the NHTSA representative 
and ask you this. You, from the tone of your voice, I know care 
about this a lot. The Inspector General is saying we need to 
really move. It seems to me, as we lay out the facts, let's 
just say, leave the emotion aside for a minute, and just look 
at what this is costing us and the fact that some States appear 
to be doing better than others. Is that right, Mr. Rosenker? Is 
it true?
    Mr. Rosenker. We have an 11 point program that we actually 
assess.
    Senator Boxer. It is the model program.
    Mr. Rosenker. At this point, again California is one of 
those States that has completed a significant number of 
elements. There are only five States. Senator Vitter is getting 
close to it. Eight out of 11 gets close. Right now, the 
Senator's State in Louisiana has seven of those elements.
    But a significant amount of work needs to be done at the 
State level if we are going to get the results we are looking 
for.
    Senator Boxer. Well, knowing the bipartisan support we have 
here for the adoption of that type of program, I am just going 
to recommend something and you can think about it. It seems to 
me that, and maybe you have already done this, but we ought to 
have a summit here that NHTSA could call, where Members of 
Congress such as Senator Lautenberg, who has taken such a lead 
on this, and others across party lines would come and present. 
It seems to me this is such an obvious plus if all the States 
were to enact this model program.
    So I wonder if you would consider working with us on such a 
summit, where we really highlight this. Because the problem is, 
if it wasn't for Mothers Against Drunk Driving, people would 
just turn away. It is such a horrible thing to look at, what 
happens to families. And it is such a statement of the failure 
of our society. We all feel like we failed.
    Look what we have done here. We have changed our laws. We 
have made our funds contingent upon States doing certain 
things. And even with that, as you point out, we have stalled 
out since the 1980's. And it is costing us over $100 billion a 
year. We can't afford that, not to mention the tragedies that 
befall families.
    So I wonder if you have thought about doing some kind of a 
high profile, ask the President to come, the First Lady to 
come. We would have just all of us working together because 
there are a lot of issues we don't work together on. This is 
one we could.
    Mr. Rosenker. Madam Chair, we would be delighted to be a 
partner in such a program.
    Senator Boxer. OK. Well, let's talk afterwards. Let's work 
together. That would be great.
    Any questions, Senator?
    Senator Vitter. Sure. Thank you, Madam Chair.
    I take it from everything I have read that two key 
problems, not the only ones, but two problems near the top of 
the list are underage drinking still, and very, very drunk 
drivers. You know, folks who are just not near the limit, but 
way over the limit.
    Is it correct that those are two key problems? And what 
specifically should we doing to focus on those in partnership 
with States?
    Mr. Barrett. Senator, I would be glad to address it from 
the Department of Transportation. I would agree with you. Those 
are two significant problems. To address the Chairman's point 
there, too, Nicole Nason, the NHTSA Administrator recently did 
convene a summit which was more focused than the one you are 
speaking of here on ignition interlocks. The emphasis of that 
meeting was, trying to get the criminal justice prosecutors, 
law enforcement in the States to focus on more effective use of 
that technology, which we believe is a deterrent and also a 
means of preventing recidivism. When installed on an offender's 
vehicle, ignition interlocks have been proven to reduce 
recidivism by as much as two thirds.
    Recently, Louisiana, New Mexico, Illinois and Arizona have 
acted to make more aggressive use of interlock devices by 
enacting legislation requiring there use by first time DWI 
offenders. Also, we have joined with MADD on a campaign to 
eliminate drunk driving, which has among its areas of focus 
expanding the use of that technology.
    We think that gets at the higher BAC offender, and Senator, 
you are absolutely right. If you look at drunk driving arrests 
and convictions, the median, this is the median, half above, 
half below, of the BAC where you have a .08 as the standard in 
all the States, is .15. So it is way up at the high end where 
we are seeing this problem. We have to get at what the NTSB 
Chair calls hardcore drunk driving.
    We would frankly like to see more aggressive use of the 
interlock technology in States. They are trying to bring that 
forward to first offenders. We think it is effective. We think 
it has a deterrent effect and we certainly would encourage its 
use. We also support retaining the 21 minimum drinking age to 
prohibit underage drinking.
    Senator Vitter. Any other reactions to those two problems 
in particular?
    Mr. Rosenker. Clearly, there is an issue now that we are 
very concerned about, and that is the issue to try to, believe 
it or not, bring the age from 21 down to 18. There is a lot of 
publicity about it. We believe it would bring back carnage on 
the highway like we saw back in the 1970's. When the 26th 
Amendment passed and States began to actually change their 
laws, what we saw was a 10 percent increase over those few 
years when in fact as many as 43 States changed their laws. 
There were only seven that kept the 21 law age limit. And we 
saw significant increases in the carnage and fatalities because 
of the lower age limit.
    When they brought that age limit back to 21, we saw the 
reduction by 16 percent. We know that in fact these laws work. 
Despite the fact we have 21 age limit laws, a significant 
number of the fatalities that we see on our highways are 
teenage drivers that in fact have some form of alcohol in their 
bloodstream. And recognize that 6 percent of the driving public 
is between 15 and 20. They represent as drivers a little more 
than 12 percent of the fatalities, and as an age group, 20 
percent of the fatalities.
    Mix that with alcohol and we are going to increase those 
numbers significantly.
    Mr. Scovel. Senator, if I may? To comment on the renewed 
movement to lower the drinking age. My office has not performed 
studies of that specific proposal so we don't have data of our 
own on which to rely. However, we have reviewed reports from 
NHTSA and also from the Centers for Disease Control that have 
pointed out significant benefits, as the other witnesses today 
have mentioned, to the fact that when the drinking age was 
raised, highway traffic deaths among that section of the 
population were significantly lowered.
    We think the burden of proof is heavily on those who would 
advocate a change to the status quo to make clear why it is now 
necessary. In our view, we haven't seen compelling evidence to 
make that case.
    One other point, sir. Our March 2007 project focused on 
NHTSA's ability to oversee and to implement the key strategies 
that both Federal officials and State officials have identified 
as the best ones for implementing Federal drunk driving 
programs. That is, sustained enforcement of existing laws and 
effective prosecution and maximum use of available sanctions.
    We know that NHTSA currently doesn't have statutory 
authority to mandate performance measures on the States, and 
that raises complex policy questions, we realize, that are 
properly the purview of the Administration and of the Congress.
    But we do believe that NHTSA has the ability to take a 
leadership role and on a collaborative basis to work with the 
States and its key stakeholders, like the Governors Highway 
Safety Association to establish those performance measures that 
will allow both NHTSA and the States to measure the 
effectiveness of programs to carry out the strategies and to 
target Federal resources on those that have been proven most 
successful.
    NHTSA has promised a 3-year timetable to move forward on a 
couple of key initiatives. Today in our statement, we have 
urged them to advance that timetable, and in view of the high 
stakes involved here, we think that would be most prudent.
    Senator Vitter. Just to follow up on the drinking age 
issue, to sort of summarize, isn't it fair to say, if you look 
at the whole history of the drunk driving issue and all sorts 
of changes and legislation that has happened in one direction 
or another, the single biggest game by far, or loss when it 
happened in the other direction, in terms of the problem, has 
been associated with that drinking age. Isn't that fair to say, 
really without a close second in terms of identifiable factors?
    Mr. Barrett. Senator, I don't know if it is the greatest, 
but clearly it had a substantial impact in the years following 
its passage across the Country. The involvement dropped from 
approximately 60 percent of all fatal crashes down to the 40 
percent range we are talking about. So it is enormously 
significant.
    I also will offer, everybody has personal observations on 
this. Madam Chairman, if you give me leave, I would like to 
offer one on this particular issue.
    I hear this bandied about that, if you are old enough to 
fight for your Country, you are old enough to have a beer kind 
of deal. I have a son who I am very proud of who served in 
combat recently who was under 21 when he served in combat. And 
yet at the same time, as a parent, and I won't speak for my 
son, I was very pleased that the drinking age when he returned 
was still 21. I don't think it is the same type of maturity we 
are talking about, to be able to handle essentially what is a 
drug ingested into your system, with the maturity associated 
with other high stress activities.
    So I just think I want to offer that as a parent. I think 
the 21 age is essential. That is certainly the Department's 
position and we would not like to see any back pedaling on 
that.
    Mr. Rosenker. Right. If I could follow up with Admiral 
Barrett's comments, the statistics are there over the history 
of this issue. If we take a look at Virginia, for example, when 
they changed their law in 1974, there were 1,900 alcohol-
related accidents. When they changed their law and dropped it 
to the age of 18 in 1979, 4,900 accidents occurred with 
teenagers with alcohol in their systems.
    The facts are clear. They encourage the additional activity 
that enables them to have these kinds of accidents when you 
have this kind of drug in their bloodstream. It is that simple.
    Senator Boxer. Thank you very much to our first panel.
    I would just say in closing out this part, we want to be 
helpful. We need to be a team on this. There are lots of issues 
out there where we don't see eye to eye. We see eye to eye on 
this one and there is no reason that we cannot move strongly.
    When the Inspector General says we need a greater sense of 
urgency, and I know we all have so much on our plate and there 
are so many issues. I would take those words very seriously. I 
think a lot of these things are trends. We can step up to the 
plate and keep reiterating how we feel about this.
    Admiral, I think your personal story that you shared with 
us is very meaningful. I just want to thank you for your 
service, for your son's service, and to say that you make a 
very important point because even when you think about the 
message we are sending our kids, that if they are in harm's way 
in combat and to ease the fear and ease the pain, they can turn 
to a drug like alcohol, it is going to hurt them. It is going 
to hurt the military. It is going to hurt everything. So I 
think you make a very important point.
    This is an area where you almost want to shake America by 
the shoulders and say, wake up. Think of the torture we could 
save. That is not a good word. Think of the grieving we could 
prevent if we just understood this situation.
    Now, I think that Senator Vitter is right to harp on the 
young driver, because the younger you are, the less likely you 
are to think anything can happen to you, you are infallible. We 
all know that. We remember back when we were young. People 
talked about death and we didn't really get it until we were a 
lot older. And this becomes a particular challenge, but on the 
bright side, we know how to reach young people with messages. 
We know how to reach them. We know the stations that they 
listen to on the radio, what they watch on TV. We know when 
they are a captive audience. We even know what websites they go 
on.
    So I think this chance of developing a message that is 
aimed at the young people, and I know you do some of that, I 
think maybe we really do need to sit around in a summit that is 
a very broad one, and have breakout sessions and have people 
from the best advertising companies sit with us for free and 
give us their advice on how do we grasp the attention. Not 
everything has to have a dollar associated with it.
    So again, I get back to that point. Mr. Rosenker, I really 
look forward to working with you, and with you, Admiral, and 
the Inspector General and with Senator Vitter, and let's move 
forward on this.
    I thank you very much for your testimony.
    Our second panel is Hon. Michael Fields, Judge, Harris 
County Criminal Court of Law, Number 14, State of Texas; Mr. 
John Wheeler, Governor's Crime Advisor, Department of Public 
Safety, State of New Mexico; and Mr. Glynn Birch, National 
President, Mothers Against Drunk Driving.
    We welcome you all here.
    We will begin with Hon. Michael Fields, Judge, Harris 
County Criminal Court of Law.

   STATEMENT OF HON. MICHAEL R. FIELDS, JUDGE, HARRIS COUNTY 
        CRIMINAL COURT OF LAW, NUMBER 14, STATE OF TEXAS

    Judge Fields. Good morning, Senator Boxer. Thank you. In 
light of what devastation is going on in your State, I 
particularly appreciate your being here today.
    Ranking Member Vitter and distinguished members of the 
Subcommittee, thank you for having us here today, and thank you 
for inviting me to appear before you today.
    It is an honor to be here, and I am especially pleased that 
as a member of the judiciary I have been allowed the 
opportunity to participate in this very important issue.
    Senator Boxer, you are correct. We do see eye to eye on 
this issue. No member of the community and no member of the 
judiciary wants to see anyone's loved one lost to the tragedies 
of drunk driving.
    I want to commend the U.S. Congress for its leadership in 
the fight to eliminate the threat of drunk driving. In 
particular, the resources that you have provided to the States 
has helped communities across this Country. As you well know, 
each year in this country 13,000 people, some say more than 
17,000, are killed in alcohol-related traffic crashes where the 
driver's blood alcohol content is .08 or greater.
    The crash data reveals some very interesting points. The 
first being that over the last 10 years, the decline in these 
tragedies has flat-lined. The question becomes, why is that? 
The second is that drunk drivers, particularly hardcore drunk 
drivers, are those who drive with high BACs, .15 or greater, 
and repeat offenders who are resistant to changing their 
illegal behavior, require special adjudication strategies if 
further declines are to occur.
    The judiciary, in my opinion, plays a pivotal role in that 
effort to reduce and ultimately eliminate drunk driving. In 
order for all of the laws and strategies that we have heard 
about here this morning to work, judges must be a part of the 
process on how to effectively implement those laws. They must 
be consulted on how it is that the laws as they are written, 
although well intentioned, can often result in conflicting 
results.
    These cases, especially dealing with hardcore drunk 
drivers, are often very complex and as such judges need to be 
able to exercise discretion in sentencing so that the sentences 
can be tailored to individual offenders. To accomplish that, we 
have to realize that one goal, one cookie cutter size, does not 
fit all.
    My experience tells me that there are certain strategies 
that have been proven to work. In Harris County, we use a 
combination of efficient docketing strategies of cases, using 
effective sanction strategies, and a combination of time 
management, technology in position, and treatment to eliminate 
the threat of hardcore drunk driving.
    Evidence suggests that the sooner a person who meets the 
criteria of a hardcore drunk driver is identified, the sooner 
and more likely that they can begin the process of 
rehabilitation and reduce the likelihood of re-offending.
    A combination of effective adjudication, pretrial service 
strategies, in concert with judicial leadership holds the 
greatest potential for reducing drunk driving and the tragedies 
that occur as a result. That is why for the last 4 years, I 
have been involved in an exciting educational project, along 
with the National Association of State Judicial Educators, the 
Century Council and other judges from around the Country, that 
has so far touched nearly 4,000 judges in more than two thirds 
of the United States.
    We educate judges on leadership principles and how those 
principles can guide sentencing strategies in making a 
difference. Some of those are: recognizing high BAC as a sign 
of a hardcore drunk driver; pretrial supervision strategies; 
drug and alcohol evaluations and assessments; intensive 
monitoring and supervision during probation; staggered 
sentencing, as Senator Klobuchar said happen in her State; the 
use of vehicle sanctions, including interlocks; home 
confinement; dedicated detention facilities; and other 
measures.
    Senator Klobuchar said, and I agree, that our mothers, 
fathers, sisters and brothers are being killed. But they are 
also the ones who are doing the killing. We have to do more to 
help those people out of their addictive behavior and out of 
those killing situations.
    Thank you for having me.
    [The prepared statement of Judge Fields follows:]

  Statement of Hon. Michael R. Fields, Presiding Judge Harris County 
            Criminal Court of Law, Number 14, State of Texas

    Good morning Chairman Lautenberg, Ranking Member Vitter and 
other members of the Subcommittee. Thank you for inviting me to 
testify before you today on the issue of drunk driving 
prevention. It is an honor to be here.
    I want to thank the U.S. Senate for including State 
incentives for judicial education efforts and DWI courts in the 
2005 SAFETEA-LU bill. I also want to commend your commitment to 
fully fund U.S. Department of Justice efforts to expand DWI 
courts across the Nation. Your congressional leadership will 
foster the development and adoption of programs that show great 
promise in addressing this complex issue.
    Each year more than 13,000 people in this country are 
killed in alcohol-related traffic crashes involving a driver or 
motorcycle operator with an illegal blood alcohol concentration 
(BAC) of .08 or higher. The majority of these deaths are caused 
by hardcore drunk drivers, those who drive at high BAC levels 
(.15 and above) and repeat offenders. Over the last 10 years, 
progress in reducing alcohol-related traffic fatalities has 
generally remained unchanged and the percentage of fatalities 
involving hardcore drunk drivers has not decreased.
    The judiciary plays a pivotal role in the effort to reduce 
drunk driving. Of all types of criminal cases, drunk driving 
cases are among the most complicated in terms of legal and 
evidentiary issues, and hardcore drunk driving cases are often 
especially challenging. Judges need judicial discretion in 
order to effectively deal with these offenders who vary greatly 
in their response to specific deterrent efforts. In order to 
adequately address the individual needs of drunk driving 
suspects and convicted offenders, judges require greater 
flexibility in sentencing options. This is especially true as 
it concerns the hardcore offenders. Research has shown that 
alternative sentencing methods, tailored to each offender, such 
as staggered sentencing, the imposition of ignition interlock 
devices as well as other forms of technology geared at stopping 
the addictive behavior commonly associated with hard core drunk 
drivers can have a profound effect on an offender's ability to 
avoid re-offending. In contrast, drunk driving sentences that 
do not take past criminal history and habits into consideration 
may actually contribute to recidivism. The judicial system can 
produce a significant social impact with a thoughtful, 
individualized combination of sanctions that force a hardcore 
drunk driver to change his or her behavior or face additional 
consequences. As important as judicial discretion and 
sentencing alternatives are, they alone will not change the 
landscape in the field of hardcore drunk driving. Judges must 
``take the reigns'' so to speak, and adopt a greater leadership 
role in the effort to combat hardcore drunk driving.
    For the last 4 years I have been working with organizations 
such as the National Association of State Judicial Educators, 
The Century Council as well as judges and judicial educators 
from across the Nation on an exciting judicial education 
project. To date, more than 4,000 judges in nearly two-thirds 
of the United States have received this invaluable leadership 
training and the companion Hardcore Drunk Driver Judicial 
Resource Guide. However, there's still more to do. Educating 
judges on the issues surrounding hardcore drunk driving as well 
as teaching strategies to effectively reduce all drunk driving, 
is critical to stemming the tide of drunk driving deaths. The 
Hardcore Drunk Driver Judicial Guide's goal is to educate 
judges on the need for comprehensive sentencing that not only 
punishes the criminal behavior of driving while intoxicated but 
also changes the addictive behavior associated with drunk 
driving by rehabilitating offenders, thus reducing recidivism 
rates.
    From the moment a person who research suggests may be a 
hardcore drunk driver first appears before a Judge or 
Magistrate to the time of final conviction and sentencing, the 
criminal justice system must immediately begin to assess and 
address the reason(s) for the offender's behavior and work to 
reduce future occurrences. Unfortunately, at times inadequate 
funding and resources, a lack of judicial leadership or other 
breakdowns in the system thwart that opportunity. That is why, 
in Harris County, we strive to avoid such system failures by 
utilizing efficient docketing of cases, coupled with the 
logical use of both technology and treatment in an effort to 
stop drunk driving. Evidence, both anecdotal and real, suggests 
that the sooner a person identified as a hardcore drunk driver 
begins the process of rehabilitation, the greater the 
likelihood that they will not re-offend in the future.
    As a result of my judicial training experience coupled with 
my own personal experiences, I believe the following strategies 
are effective as it relates to changing an offender's behavior 
and reducing recidivism:
    Increased resources for judicial training and for 
developing effective judicial strategies such as DWI Courts, 
DWI tracking systems, supervised probation and treatment 
programs that increase sentence compliance;
    Legislative recognition that high BAC levels of .15 percent 
and above are an indicator of a hardcore drunk driver. (The 
fatality risk posed by drivers at .15 BAC levels is more than 
300 times that of a sober driver. Currently, these drivers are 
involved in 58 percent of all alcohol-related traffic 
fatalities);
    Greater compliance monitoring and increased penalty options 
for non-compliant offenders (Studies show that hardcore drunk 
drivers often fail to comply with their sentences because they 
know it is unlikely they will be caught, making the conviction 
meaningless and increasing recidivism);
    Utilization of pre-trial supervision programs for repeat 
offenders and first offenders who identify as potential 
hardcore drunk drivers so they can obtain counseling, treatment 
and monitoring as soon as possible following a DWI arrest. (A 
long-term analysis of Wisconsin's pretrial intervention program 
shows participants were less likely to be re-arrested for drunk 
driving);
    Employment of pre-sentence investigations or interviews 
with drunk driving offenders in order to track and review the 
offender's record, any previous sanctions imposed, and 
compliance history (This will further enable judges to choose 
sanctions that will help protect the public while punishing and 
rehabilitating the offender);
    Mandate an alcohol assessment for all hardcore offenders so 
that alcohol addiction can be identified and appropriate 
treatment and aftercare can be administered. (While sanctions 
that merely punish drunk-driving offenders can serve as 
necessary and useful tools, they are meaningless unless 
accompanied by rehabilitation efforts that deal with long-term 
lifestyle changes. Otherwise, recidivism will always be a 
looming issue);
    Utilize intensive monitoring, supervision and probation 
during the drunk driving offender's rehabilitation program to 
increase the chances of sentence completion (This is another 
promising strategy shown to reduce drunk driving);
    Consider staggered sentencing with intensive probation. 
(This concept is being implemented in Minnesota and staggers 
the repeat offender's jail sentence into three periods with 
probation between each period. Offenders serve the first period 
of incarceration but the remaining periods can be suspended if 
the offender succeeds in meeting rehabilitation criteria. A 
2003 preliminary analysis by the Minnesota House of 
Representatives found a 50 percent reduction in DWI recidivism 
through this program);
    Judicial intervention in the plea bargaining process so as 
to insure effective sentencing of drunk driving offenders;
    Restrict diversion programs in order to prevent repeat 
offenders from being mistakenly identified as first offenders.
    Increase measures to reduce failures to appear at hearings. 
(Criminal defendants should not be allowed to flee the 
jurisdiction of the Courts without appropriate repercussions.)
    Preventing convicted drunk drivers from re-offending 
through the use of vehicle sanctions such as impoundment, 
immobilization and ignition interlocks while they are serving 
probation. Vehicle sanctions should be applied in tandem with 
alcohol assessment and treatment as required. Otherwise, the 
offender will likely resume his or her drunk driving behavior 
once the vehicle sanction is removed. Ideally, the judge should 
determine the amount of time a vehicle sanction remains in 
place based on the offender's progress in alcohol education or 
treatment.
    Use of home confinement with electronic monitoring in 
tandem with other interventions such as treatment as an 
alternative to jail. (Numerous studies have found home 
confinement to be effective in reducing DWI recidivism);
    Utilize dedicated DWI detention facilities that combine 
confinement with supervised alcohol treatment services. (In 
Suffolk County, New York repeat DWI offenders are allowed to 
choose between 2-3 years in the State penitentiary or 6 months 
in the County DWI jail followed by a 5-year intensive probation 
program. If they violate the terms of their sentence or 
probation, they must return to the State penitentiary to serve 
their full sentence);
    In conclusion, drunk driving--particularly hardcore drunk 
driving--is a very complex problem that requires comprehensive 
solutions. A series of mutually reinforcing interventions 
tailored to individual offenders will undoubtedly lead to 
behavioral change and reduce drunk driving recidivism. Focusing 
on the complexities and challenges that exist in the judicial 
system with regard to drunk driving should be a top priority. 
Many times, these challenges cannot solely be met through the 
passage of State legislation. It is essential that Federal and 
State laws aimed at reducing drunk driving carefully avoid 
prescriptive sanctions that limit judges from considering 
individual offender's needs.
    Understanding the judicial system, increasing its resources 
and focusing on improvements in each State and locality are 
important steps in reducing drunk driving. In addition, 
understanding each DWI offender and building a set of 
individualized sanctions will rehabilitate offenders and reduce 
recidivism. In order to significantly impact the hardcore drunk 
driving problem, these actions are essential. In recent years, 
millions of Federal dollars have been allocated to highly 
visible enforcement efforts to identify suspected drunk drivers 
on our roads and several thousand laws have been passed to 
sanction convicted offenders, yet the drunk driving problem has 
remained largely unchanged.
    By expanding our focus to incorporate effective sentencing 
strategies, increased Judicial education efforts along with 
appropriate judicial leadership and discretion drunk driving 
and its related fatalities will be dramatically reduced. Thank 
you.

      Responses by Hon. Michael R. Fields to Additional Questions 
                        from Senator Lautenberg

    Question 1. Recognizing that each drunk driving case is 
complex, requiring a combination of solutions tailored to the 
individual. Do you believe that Federal sentencing mandates, 
like the 1-year hard suspension, handicap your ability to 
adequately and effectively deal with drunk driving offenders?
    Response. Thank you for allowing me the opportunity to 
supplement my earlier testimony. In response to your first 
question, while certain Federal sentencing mandates may not 
directly handicap a Judge's ability to adequately and 
effectively deal with drunk driving offenders, the unintended 
consequences of those mandates often do. One such example is 
the Federal mandate that requires a 1-year ``hard'' suspension 
for Second offenders. The hard suspension requirement negates 
the ability of Judges to issue an occupational driver's license 
during the suspension period to those offenders who wish to 
take probation. Consequently, defendants are unable to get to 
and from work in order to pay probation associated fines and 
fees. As a result, these offenders do not receive the treatment 
needed to end their alcohol or drug addiction. The unintended 
consequence is higher recidivism rates. Judges must be allowed 
to issue limited occupational licenses (with interlock 
requirements) to defendants who accept probation so they can 
continue to work, receive treatment and attend probation 
meetings.
    In my experience, most first or second drunk driving 
offenders who refuse probation end up doing minimal jail time 
with no treatment component attached. They then drive without a 
license (or insurance) during the post conviction suspension 
period to get to work. This often leads to additional charges 
being filed against the defendant for unlicensed driving, 
thereby creating a ``revolving door'' effect.

    Question 2. When we reauthorize SAFETEA what 
recommendations would you have to incorporate effective 
strategies to deal with repeat offenders?
    Response. One recommendation I would make is to require 
Judges to place interlock devices on defendant's vehicles who 
are identified as potential hardcore drunk drivers (HCDD's). 
Creating incentives for counties to build treatment facilities 
in addition to jails or at least requiring that a certain 
percentage of beds in jails be designated for alcohol and drug 
treatment purposes would also be helpful. Finally, providing 
Judicial education about the use of technology such as trans-
dermal alcohol monitoring, Ignition Interlocks, electronic 
monitors and other DWI prevention strategies will assist in 
properly equipping Judges to effectively deal with these 
complex cases. Finally, Judges need the ability to implement 
post conviction treatment requirements for those defendants who 
choose to forgo probation.

    Senator Boxer. Thank you, Judge.
    And now we hear from John Wheeler, who is the Governor's 
Crime Advisor, Department of Public Safety in the State of New 
Mexico. Welcome, sir.

STATEMENT OF JOHN WHEELER, GOVERNOR'S CRIME ADVISOR, DEPARTMENT 
             OF PUBLIC SAFETY, STATE OF NEW MEXICO

    Mr. Wheeler. Thank you, Madam Chair and Ranking Member 
Vitter. On behalf of the State of New Mexico, Governor 
Richardson and our DWI Czar Rachel O'Connor, thank you for the 
opportunity to present testimony today.
    New Mexico has both a chronic problem with drunk driving 
and a long history of using innovative solutions to alleviate 
that problem. From 1979 through 1996, New Mexico led the Nation 
in drunk driving fatalities. In the early 1990's, New Mexico 
had nearly 400 alcohol-involved fatalities per year. In 2006, 
New Mexico had 191 fatalities and preliminary statistics for 
2007 indicate a third record low year.
    The Richardson Administration has instituted a number of 
progressive programmatic and policy changes, and I would like 
to talk about the programs that we feel work.
    In 2003, the Governor convened State agency representatives 
and advocates to develop a stateside DWI plan. Based on the 
recommendations in 2004, the Governor hired a DWI Czar, a 
cabinet level position, to plan and lead our efforts in DWI. IN 
2005, based on NHTSA funding, we developed a leadership team to 
act as a single point of focus to address issues of policy and 
program change.
    New Mexico uses DWI checkpoints to reduce drunk driving and 
raise awareness of enforcement initiatives. In 2004, the State 
increased its number of super-blitzes, 2 week periods of very 
focused enforcement. The State uses Federal Section 164 and 
Section 410 enforcement dollars to fund approximately 700 DWI 
checkpoints a year through the super-blitz and checkpoint 
program.
    New Mexico also receives funds from NHTSA's 403 and Section 
164 programs to fund a pilot program with full-time DWI law 
enforcement officers in those counties in New Mexico where DWI 
is the deadliest. Enforcement efforts are accompanied by an 
extensive multimedia campaign entitled You drink, You drive, 
You lose, and outreach coordinators who help us get the message 
out.
    In 2006, the Department of Public Safety started the 
Drunkbuster hotline, a toll-free, 1-800 and three digit cell 
phone number to report drunk driving. In 2007 so far, 
Drunkbusters has received 11,000 calls. We believe it has 
resulted in 400 law enforcement contacts that may not otherwise 
have occurred.
    The State has also increased both the enforcement efforts 
and the penalties for bars and restaurants that chronically 
serve minors or individuals who are intoxicated. Both of these 
are funded by Section 164 dollars.
    In 2004, Governor Richardson spearheaded a task force to 
study and make recommendations regarding the use of ignition 
interlock as a tool to reduce recidivism and deter drunk 
driving in New Mexico. In 2005, the Governor signed the 
Ignition Interlock Act and New Mexico became the first State to 
mandate ignition interlock for all convicted DWI offenders, 
including first time offenders.
    Both nationally and in New Mexico, Native Americans die 
from alcohol-involved crashes at a rate up to five times that 
of non-Native Americans. In 2007, the Governor, by executive 
order, appointed a State-Tribal DWI Task Force to make 
recommendations to reduce alcohol-involved fatalities on tribal 
and pueblo lands. The State has been proactive on this issue, 
developing the first television public service announcement 
that addresses drunk driving by Native Americans, and hiring a 
DWI coordinator to liaison between State, Federal and tribal 
individuals.
    I want to conclude by emphasizing several points. Using 
preliminary figures for 2007, we expect to experience an over 
20 percent drop in alcohol-involved fatalities from 2005 to 
2007, and an equal drop in alcohol-involved crashes and injury 
crashes.
    Second, we are grateful for the nearly $10 million in 
Federal funding we have received through NHTSA programs to help 
us in this effort.
    Finally, we believe it is not just one effort, but a 
combination of these programs and the programs that have been 
talked about here this morning that have led to the current 
trend, and New Mexico is committed to increasing the reduction 
in the future.
    Thank you for the opportunity and I would appreciate any 
questions you might have.
    [The prepared statement of Mr. Wheeler follows:]

  Statement of John Wheeler, Governor's Crime Advisor, Department of 
                   Public Safety, State of New Mexico

    Mr. Chairman, members of the Committee, my name is John 
Wheeler, Crime Advisor to Bill Richardson, Governor of the 
State of New Mexico. I am here to present information regarding 
our DWI programs on behalf of Governor Richardson and the 
State's DWI Czar, Rachel O'Connor. It is a pleasure to be here 
today.
    New Mexico has both a chronic problem with drunk driving 
and a long history of utilizing creative and innovative 
solutions to solve it. From 1979 through 1996 New Mexico led 
the Nation in drunken driving fatalities. In the early 1990's 
New Mexico had nearly 400 alcohol involved fatalities per year. 
In 2006, New Mexico had 191 fatalities and preliminary 
statistics for 2007 indicate a third consecutive year of record 
low numbers.
    The Richardson Administration has instituted a number of 
progressive programmatic and policy changes that have reduced 
alcohol involved fatalities in New Mexico. I would like to 
discuss programs that we believe have been effective:
    Leadership: In 2003 the Governor convened State agency 
representatives and advocates to develop a statewide strategic 
plan to reduce alcohol involved fatalities. Based on the 
recommendations of the planning team the Governor in 2004 hired 
a ``DWI Czar'' a Cabinet level position charged with 
implementing the State Plan and leading our efforts on DWI. In 
2005 as part of a National Highway Traffic Safety 
Administration (NHTSA) funded law enforcement effort the State 
also developed a ``Leadership Team'' on DWI which includes 
representation from all State agencies, courts, and the 
advocacy community. The Leadership Team provides a single point 
of focus to discuss mutual issues and make recommendations 
regarding DWI program and policy issues.
    Enforcement and Public Awareness: New Mexico uses DWI 
checkpoints to reduce drunk driving and raise awareness of 
enforcement initiatives. In 2004 the State increased its number 
of ``Superblitzes'' which are 2 week periods that include a 
high concentration of checkpoints. The State uses Federal 
Section 164 and Section 410 enforcement dollars to fund 
approximately 700 DWI checkpoints a year through its Superblitz 
and checkpoint program.
    The State of New Mexico also receives funds from NHTSA's 
Section 403 and Section 164 programs to fund a pilot program 
with full time DWI law enforcement officers in those counties 
where DWI is the deadliest. Enforcement efforts are accompanied 
by an extensive multi-media campaign (funded by Section 164 and 
Section 410) entitled ``You Drink, You Drive, You Lose'' and 
outreach coordinators who increase the visibility of law 
enforcement through non traditional media efforts.
    In 2006 the Department of Public Safety started the 
Drunkbuster Hotline, a toll free hotline to report drunk 
driving. In 2007 Drunkbusters has received over 11,000 calls 
resulting in over 400 contacts with police that may not 
otherwise have occurred. The State has also increased both the 
enforcement efforts and the penalties for bars and restaurants 
that chronically serve minors or person who are intoxicated. 
Both of these projects are funded primarily by State dollars 
and are supplemented by Section164 dollars.
    Ignition Interlock: In 2004 Governor Bill Richardson 
spearheaded a Task Force to study and make recommendation 
regarding the use of Ignition Interlock as a tool to reduce 
recidivism and deter drunk driving in New Mexico. In 2005 the 
Governor signed the Ignition Interlock act, becoming the first 
State to mandate Ignition Interlocks for all convicted DWI 
offenders, including first time offenders.
    Native American: Both nationally and in New Mexico, Native 
Americans die from alcohol involved crashes at a rate of up to 
five times that of non-natives. In 2007 the Governor by 
Executive Order appointed the State Tribal DWI Task Force to 
make recommendations to reduce alcohol involved fatalities on 
tribal lands. The State has been proactive in this issue, 
developing the first television public service announcement 
that addresses drunk driving among Native American tribes, and 
hiring a DWI Tribal Coordinator to liaison between the State 
and New Mexico tribes on issue related to enforcement, public 
policy, public awareness and data sharing. Both the Coordinator 
and the PSA were funded by Section 164 dollars.
    I want to conclude by emphasizing several points. Using 
preliminary figures for 2007 we expect to experience an over 20 
percent reduction in alcohol involved fatalities from 2005-
2007; and an equal drop in alcohol involved crashes and injury 
crashes. Second, the State utilizes and is grateful for the 
nearly $10 million dollars per year in funding that we received 
from the National Highway Traffic Safety Administration (NHTSA) 
to implement many of these programs in our State. Finally, we 
believe it is not just one effort but a combination of the 
above described efforts that have led to our reduction.
    Thank you.

    Senator Boxer. Thank you, sir, very much.
    And now, Mr. Glynn R. Birch, National President, Mothers 
Against Drunk Driving. We welcome you here.

   STATEMENT OF GLYNN R. BIRCH, NATIONAL PRESIDENT, MOTHERS 
                     AGAINST DRUNK DRIVING

    Mr. Birch. Thank you, Madam Chairman and Ranking Member 
Vitter.
    Thank you for the opportunity to testify before the 
Subcommittee on Effectiveness of the Federal Drunk Driving 
Programs. Madam Chairman, from your comments already, I want to 
thank you for your keen sense of understanding the problem and 
your leadership.
    I became involved with MADD after my son Courtney was 
killed by a drunk driver on May 3d, 1988. Courtney was playing 
with his two older cousins when he heard an ice cream truck in 
his grandmother's neighborhood. Hearing the sound of the ice 
cream truck, Courtney followed his cousins outside. That is 
when the offender's car came barreling down the street, hit 
Courtney going over 70 miles per hour, dragged his body over 
150 feet before the car finally stopped. My son was killed 
instantly by a three time repeat offender who had a BAC of .26.
    Madam Chairman, we need to be honest with ourselves. Most 
of the progress of drunk driving occurred in the mid-1990's. 
While our efforts, along with those of MADD and other groups 
that have brought the drunk driving situation to be socially 
unacceptable, it is still tolerated. Data tells us that up to 
75 percent of drunk drivers continue to drive, and even with 
their license being revoked. Statistics from May 2000 of the 
Columbus Dispatch article, it should alarm us all. It states, 
according to the story, that Ohio citizens share the road with 
33,000 DUI offenders with five or more convictions. It is also 
startling that the on the road there are 147,000 people with 
three or more convictions.
    Faced with this dilemma, MADD has looked carefully at the 
numbers. Now, MADD keeps in mind that if we continue to do the 
same things, we shouldn't expect a different outcome. Following 
only those solutions proven to work, last November MADD 
announced a campaign to eliminate drunk driving. Now, the four 
elements of the campaign are high visible law enforcement, 
mandate that interlocks be on all convicted drunk drivers, and 
voluntary development of advanced technology, and the last of 
the elements is the grassroots mobilization which MADD proudly 
does. I have also submitted testimony on record on this.
    But MADD believes that anyone who violates the public trust 
and drives drunk, 27 years after everyone knows the effects of 
drunk driving, has earned the right for an alcohol ignition 
lock device be placed on their device or his or her vehicle. 
The offender has to blow into the device before the car will 
start. They can do anything else that the rest of us can do, 
they just can't drive drunk.
    Had an alcohol ignition interlock law been in place in my 
home State of Florida in 1988, my son Courtney would be here 
today alive, I believe. Last year, Senator Vitter, or just this 
year, three States joined New Mexico in passing legislation to 
require ignition interlocks on all first time DUI offenders, so 
I applaud your State for their efforts. These States mandated 
interlocks for those convicted at .08 BAC or higher. This is 
our highest legislative priority as far as MADD goes.
    MADD supports substantial Federal incentive grants for 
States that pass legislation requiring interlocks on all first 
time offenders with a BAC of at least .08. MADD also supports 
the consideration of soft sanctions for States that do not have 
interlock laws on drunk driving convictions of .15 and above 
and all repeat offenders. Again, we do not support hard 
sanctions for States on this measure because major progress is 
being made without that happening.
    We continue to support hard sanctions for States on laws 
where the scientific data is overwhelming, such as the 21 
minimum drinking age, the national .08 BAC standard, and zero 
tolerance laws for underage drinkers.
    We also would request increased Federal funding to help 
with the cooperative research initiative between the automotive 
industry and the Federal Government to support technologies 
that may eventually prevent vehicles from being started by 
drunk drivers.
    So Madam Chairman, in closing, there are some who advocate 
lowering the drinking age to 18. I would like to submit for the 
record statements from the American Medical Association, the 
National Transportation Safety Board, and the Insurance 
Institute of Highway Safety with regard to the science behind 
the law. There is no controversy in the science. The science 
supports the law.
    The bipartisan work that has taken place in the Senate and 
elsewhere have saved lives. Thanks to their efforts, 25,000 
parents somewhere will know that the tragedy of their son or 
daughter, getting that call at 2 o'clock in the morning, won't 
happen. I know this first hand and would like to make sure that 
it doesn't happen to any other parent.
    MADD believes that the way to save lives and to move 
forward on drunk driving is through the support of the 21 laws, 
ignition interlock legislation for all convicted drunk drivers, 
and eventually new technology that will 1 day not allow the car 
to start for drunk drivers.
    Since 1980, together we have made great progress, but it is 
still tolerated. Drunk driving is still tolerated. With 
interlocks, drunk driving is no longer tolerated. With advanced 
technology, it will be impossible. That is the march of MADD, 
and we invite the support of the Congress, the Administration 
and the American people.
    So I would like to end by saying I will be open for 
questions, but before I do that, Madam Boxer, I would like to 
acknowledge a MADD mom from your State of California. Mary 
Clarksburg is right behind me sitting.
    Senator Boxer. Welcome.
    Mr. Birch. Thank you for your time, and I welcome any 
questions that you have.
    [The prepared statement of Mr. Birch follows:]

            Statement of Glynn R. Birch National President, 
                     Mothers Against Drunk Driving

    Chairman Lautenberg, Ranking Member Vitter, and members of 
the subcommittee. Thank you for the opportunity to testify 
before your subcommittee on the effectiveness of Federal drunk 
driving programs.
    Mr. Chairman, I want to publicly thank you for your efforts 
to stop drunk driving. You have played a singular role in this 
fight and MADD sincerely appreciates your steadfast leadership. 
Extraordinary progress has been made to reduce drunk driving, 
with a 44 percent reduction in alcohol-related fatalities since 
1980--the year MADD was founded. We would also like to thank 
law enforcement, prosecutors, NHTSA, State highway safety 
offices, and others for their leadership. Most especially we 
want to thank the American people, who demanded that progress 
be made. This has truly been a team effort.
    For more than 15 years, I have worked as a volunteer to try 
and advance MADD's lifesaving mission at the local, state, and 
national levels.
    I became involved with MADD after my son, Courtney, was 
killed by a drunk driver on May 3, 1988. Courtney was playing 
with his two older cousins at his grandmother's house. Hearing 
the music of an ice cream truck, Courtney followed his cousins 
outside. That's when the offender's car came barreling down the 
street and hit Courtney at 70-miles per hour, dragging his 
small body over 150 feet before the car stopped. My son was 
killed instantly by a three time repeat offender with a BAC of 
.26.
    Mr. Chairman, as you know this must not be tolerated. In 
the fight against drunk driving, however, we also have to be 
honest with ourselves. Most of the progress on drunk driving 
occurred by the mid 1990's thanks to the 21 minimum drinking 
age, zero tolerance laws, the national .08 standard, 
administrative license revocation, and especially, tireless 
leadership by law enforcement.
    For the past 10 years, we have been able to maintain this 
progress, but have made no further gains. In 2006, there were 
nearly 13,500 fatalities involving a driver or motorcycle 
operator with at least a .08 blood alcohol concentration (BAC) 
and nearly half a million injuries due to alcohol-related 
traffic crashes. While your efforts along with those of MADD 
and other groups have made drunk driving socially unacceptable, 
it is still tolerated.
    For too long in America, we have been practicing a ``catch 
and release'' program. Law enforcement does their very best to 
catch drunk drivers and we as a society through our 
legislatures and courts, let them go. The science tells us that 
up to 75 percent of drunk drivers continue to drink and drive 
even when their licenses have been revoked. Statistics from a 
May 7, 2007 Columbus-Dispatch article should alarm us all. 
According to this story, Ohio's citizens share the road with 
33,000 DUI offenders with five or more convictions! They are 
also sharing the road with 147,000 people with three or more 
convictions! We are certain that Ohio is not the only State 
with this problem as we hear media report, after media report 
and victim story after victim story telling us repeat drunk 
driving offenders put our families at risk every day.
    Faced with this dilemma, MADD has looked carefully at the 
numbers--each representing a precious life--to try and decide 
what can be done to again reduce drunk driving fatalities and 
injuries. MADD keeps in mind that if we continue doing the same 
things, we shouldn't expect a different outcome.
    Following only those solutions proven to work, MADD 
announced the Campaign to Eliminate Drunk Driving on November 
20, 2006.
    The Campaign's 1-year anniversary is just a month away, and 
here are its four parts:

     Intensive high-visibility law enforcement, including 
twice-yearly crackdowns and frequent enforcement efforts that 
include sobriety checkpoints and saturation patrols in all 50 
states.
     Full implementation of current alcohol ignition interlock 
technologies, including efforts to require interlock devices 
for all convicted drunk drivers. A key part of this effort will 
be working with judges, prosecutors and State driver's license 
officials to stop the revolving door of repeat offenders.
     Voluntary exploration of advanced vehicle technologies 
through the establishment of a Blue Ribbon panel of 
international safety experts to assess the feasibility of a 
range of technologies that would prevent drunk driving. These 
technologies must be moderately priced, absolutely reliable, 
unobtrusive to the sober driver, and set at the illegal limit 
of .08.
     Mobilization of grassroots support, led by MADD and its 
more than 400 affiliates, and our partners to make the 
elimination of drunk driving a reality. MADD is uniting drunk 
driving victims, families, community leaders, and policymakers 
in the fight to eliminate drunk driving.

    MADD believes that anyone who violates the public trust and 
drives drunk 27 years after everyone knows the effects of drunk 
driving has earned the right for an alcohol interlock device to 
be installed on his or her vehicle. The offender has to blow 
into the device before the car will start. The offender can 
still go to work, pick up his or her kids from school, or do 
anything the rest of us can do. They just can't drive after 
drinking, in violation of their probation.
    Had an interlock law been in place in Florida in 1988, my 
son Courtney would be alive today. Our family would have 
celebrated Courtney's 21st birthday this August. It is still 
difficult for my family and me to comprehend that he never made 
it to this passage in his life.
    Multiple studies on interlocks for both first-time and 
repeat offenders show decreases in repeat offenses (i.e. 
recidivism) of up to 90 percent while the interlock is on the 
vehicle.\1\ For example, New Mexico, even before its new, more 
extensive first offender interlock program, found a decrease in 
recidivism by over a half among first offenders who installed 
interlock devices.\2\
---------------------------------------------------------------------------
    \1\i Willis, C., Lybrand, S., & Bellamy, N. ``Alcohol Ignition 
Interlock Programs for Reducing Drunk Driving Recidivism.'' Cochran 
Data base of Systematic Reviews (2005).
    \2\Voas, Robert, Paul Marques, and Richard Roth. ``Evidence that 
Interlocks Are Effective with First Offenders.: 6th Annual Ignition 
Interlock Symposium, 2005.
---------------------------------------------------------------------------
    <http://www.tirf.ca/whatNew/newsItemPDFs/Bob--Voas.pdf >
    Last year, Arizona, Illinois, and Louisiana joined New 
Mexico in passing legislation to require ignition interlocks on 
all first time DUI offender's vehicles. These states mandate 
interlocks for those convicted at .08 BAC and higher. New 
Mexico, who has had the law the longest, is seeing substantial 
reductions in drunk driving crashes and fatalities. MADD 
applauds the efforts of these states and will continue to work 
in State legislatures across the country to pass similar bills. 
This is our highest legislative priority.
    MADD supports substantial incentive grants for states that 
pass legislation requiring interlocks on all first time 
offenders with a BAC of at least .08. We feel this is the best 
way to persuade more states to require ignition interlocks to 
keep convicted drunk drivers from continuing to endanger the 
public. We do not support hard or soft sanctions on states for 
first offense interlocks at .08 for two reasons. Many states 
are actively considering this important measure already, and to 
be effectively implemented, the State must be sincerely 
committed to substantial changes in its judicial and driver 
licensing systems. These changes will initially have a 
significant price tag. The good news for tax payers is that the 
drunk driver must pay for the interlock.
    MADD also supports the consideration of soft sanctions for 
states that do not have interlock laws for drivers convicted 
with a BAC of .15 and above and all repeat offenders. We do not 
support hard sanctions for states on this measure because major 
progress is being made.
    MADD will continue to support hard sanctions for states on 
laws where the scientific value is overwhelming, the public 
support is strong, and the need for national uniformity is 
demonstrated. The 21 drinking age, the national .08 BAC 
standard, and zero tolerance laws for underage drinkers are 
excellent examples.
    MADD also respectfully asks Congress to consider supporting 
increased funding for the Governors Highway Safety Program and 
law enforcement in the next highway reauthorization bill in 
order to ensure sufficient resources for high-visibility 
enforcement including enforcement of underage drinking laws.
    We also would request increased Federal funding to help 
with the cooperative research initiative between the automotive 
industry and the Federal Government to support new technologies 
that may eventually prevent vehicles from being started by 
drunk drivers. MADD does not support any mandate of this new 
technology, and we believe it is best pursued on a voluntary, 
data-driven basis over the next decade.
    Mr. Chairman, in closing, there are some who advocate 
lowering the drinking age back to 18. We know the earlier youth 
drink, the more likely they are to become alcohol dependent 
later in life and to drive drunk. In order to prevent this, the 
21 drinking age law is pivotal to protecting youth.
    There has been some debate about the 21 minimum drinking 
age in the media. I would like to submit for the record 
statements from the American Medical Association, the National 
Transportation Safety Board, and the Insurance Institute for 
Highway Safety with regard to the science behind this law.
    There is no controversy in the science. The science is 
overwhelming and supports the fact that when the drinking age 
was lowered deaths and injuries on the roads increased and when 
it was raised, deaths and injuries decreased. NHTSA estimates 
the 21 law has saved 25,000 lives since implementation by the 
states. To repeal it would be disastrous and we hope that you, 
Mr. Chairman, and all your Senate colleagues will make known 
your support for current law.
    The bipartisan work that has taken place in the Senate and 
elsewhere has saved lives. Thanks in part to your efforts, 
25,000 parents somewhere will never know the tragedy of the 
call that comes at 2 o'clock AM in the morning and says their 
child isn't coming home. I know this tragedy first hand, and 
will make sure that MADD continues to fight so that other 
parents do not.
    MADD believes the way to save lives and to move forward on 
drunk driving, is through the support of the 21 law, interlock 
legislation for all convicted drunk drivers, and eventually new 
technology that will prevent drunk drivers from driving.
    Since 1980, together we have made drunk driving socially 
unacceptable, but still tolerated. With interlocks, drunk 
driving is no longer tolerated. With advanced technology, it 
will be impossible. That is the march MADD leads, and we invite 
the support of the American people.
    Thank you again for this opportunity to testify before your 
subcommittee.

         Responses by Glynn R. Birch, to Additional Questions 
                        from Senator Lautenberg

    Question 1. Could you please elaborate on MADD's definition 
of ``hard'' versus ``soft'' sanctions? Could you also explain 
more fully MADD's position on imposing new mandates on States 
that could result in loss of Federal highway dollars?
    Response. For the purposes of this discussion, MADD views a 
hard sanction as one where a State fails to comply with a 
Federal mandate and therefore a portion of the states highway 
dollars are eventually returned to the general highway trust 
fund. Therefore, the State would lose this funding. Soft 
sanctions occur when a State fails to comply with a Federal 
mandate and a portion of the states construction dollars are 
required to be spent on some form of safety improvement rather 
than general transportation construction. In this case, a State 
does not lose the funding, but the funding is diverted.
    At this time, MADD does not support any new hard sanctions. 
MADD does support soft sanctions for states without laws 
requiring convicted drunk drivers with a blood alcohol content 
of .15 and above or repeat offenders to have an alcohol 
ignition interlock device installed on his/her vehicle. MADD 
believes that ignition interlock devices are the most effective 
way to prevent convicted offenders from driving drunk. The 
offender can still use his/her vehicle; they just cannot drive 
after drinking.

    Question 2. Do you believe it is more effective to work 
with States with incentives, allowing them to determine what 
works best rather than dictating one size fits all Federal 
mandates?
    Response. In general, MADD believes it is best to work with 
states rather than creating Federal mandates. In fact, our 
current Campaign to Eliminate Drunk Driving is focused on 
passing legislation in each State which would require an 
ignition interlock device be installed on the vehicle of all 
convicted drunk drivers. There currently is no plan to pursue 
similar legislation in Congress.
    MADD also supports substantial Federal incentive grants for 
states that pass legislation requiring all first time DUI 
offenders to have an interlock device installed on his/her 
vehicle.
    However, in some cases MADD does support Federal mandates. 
In the past, excessive influence on policymakers by the alcohol 
industry, defense attorneys, and other interest groups 
prevented forward progress on drunk driving legislation. Two 
cases come to mind where Federal mandates were necessary and 
have been proven successful. The fiscal year transportation 
appropriations bill effectively created a national .08 blood 
alcohol standard. The National Minimum Drinking Age Act of 1984 
created a 21 minimum drinking age. Both of these Federal 
mandates have saved lives and without these laws, it is 
doubtful that all 50 states would have acted to pass State 
legislation on these issues.

    Question 3. In your statement you State that MADD Supports 
voluntary exploration of advanced vehicle technologies through 
the establishment of a Blue Ribbon panel of international 
safety experts to assess the feasibility of a range of 
technologies that would prevent drunk driving.
    Does this mean that once the technology has been developed, 
MADD would support putting interlock devices on all cars as 
they roll off the production line?
    Response. As you may know, the automotive industry working 
through the Alliance of Automobile Manufacturers, the National 
Highway Traffic Safety Administration, the insurance industry, 
and MADD have formed a Blue Ribbon Panel to support the 
voluntary development of advanced technology that would 
prohibit a driver with a blood alcohol content of .08 and above 
from starting his/her vehicle. Such technology must be six-
sigma accurate (meaning a virtual no fail rate), be completely 
passive to the driver, and not hassle those who are unimpaired. 
It must also be desired by the public.
    There is a major difference between current interlock 
technology and the advanced technology being sought by the Blue 
Ribbon Panel in that current technology is not passive. Today, 
a DUI offender sentenced to an interlock device must blow into 
the device before starting his/her vehicle. In contrast, the 
advanced technology would automatically detect whether the 
driver is over the illegal alcohol limit through no additional 
action by the driver.
    MADD does support having such advanced technology in every 
car in the United States, but it does not support a Federal 
mandate to have such technology installed. Again, this 
technology must be a safety feature, much like an airbag, 
electronic stability control, or anti-lock brakes, which the 
public wants.

    Senator Boxer. Thank you, sir.
    I want to thank this panel very much, very direct and I 
think very thoughtful points.
    Judge Fields, do you have any idea how many drunk driving 
convictions in your county are avoided due to plea agreements 
and reduced charges?
    Judge Fields. With respect to reduced charges, I can't give 
you a specific number. However, the policy in Harris County is 
to avoid reducing charges to anything that is not alcohol-
related. Obviously, as you know, Senator Boxer, in most 
courts----
    Senator Boxer. Well, what if it is alcohol-related? You 
said to anything that is not alcohol-related.
    Judge Fields. We don't have right now a lesser not-alcohol-
related reducible option.
    Senator Boxer. What about plea agreements? Do you know how 
many drunk driving convictions in your country are avoided due 
to plea agreements?
    Judge Fields. I can't give you a specific number. I can say 
that studies show that the majority of cases in criminal courts 
are resolved by the plea bargaining process, which is why 
judges must be educated as to what the effects of a plea 
bargain will be.
    Senator Boxer. Because I am not a lawyer, I am married to a 
lawyer. My father was a lawyer and my son is a lawyer. So I 
have a little bit by osmosis, but explain to me if there is a 
plea agreement and there is no trial and there is no 
conviction, would we see that drunk driver, would that 
situation show up in the public record anywhere if it is a plea 
agreement?
    Judge Fields. Yes, ma'am.
    Senator Boxer. OK. So you can still know that somebody 
reached an agreement on a drunk driver arrest?
    Judge Fields. Yes, ma'am.
    Senator Boxer. OK. Now, you talk about the importance of 
educating judges. I think you said that you don't think one 
size fits all because each case is different, and in order to 
impact the individual the judge has to really get into what the 
circumstances are. Do you think we could do a little more here? 
I mean, what do you do in the State? Do you have training on 
dealing with drunk drivers in your State? Is there a training 
program that judges go through?
    Judge Fields. There is more of an emphasis on training now 
that this has become such a national issue. That is a great 
thing. In fact, the program that I work with with the Century 
Council and the National Association of State Judicial 
Educators has gone out to a number of States, and as a result 
in Senator Vitter's State of Louisiana, something called a no 
refusal year was implemented in I believe the Ninth District 
after we talked about a program that I participated in in 
Harris County where I stayed up all night and reviewed warrants 
all night for everyone who the Houston Police Department and 
other departments that took them to central processing arrested 
for drunk driving if the probable cause existed and they 
refused to take a breath test, well, we took the blood.
    That program has started in Louisiana as a result of the 
education on that effort. There are laws on the books that can 
adequately deal with the issue. The question is, and the 
concern is sometimes just educating judges on how to best use 
them.
    Senator Boxer. Yes. Well, I just feel in your testimony, I 
am troubled by it just a little. You know, to me it is clear.
    Judge Fields. Yes, ma'am.
    Senator Boxer. You want to drink, you want to kill 
yourself, I am really sorry for you. Don't get in a vehicle. 
And so I think when you sort of say, well, we have to see the 
person and the situation, I just think there can be no 
deviation from that point. You get in a vehicle. You are drunk. 
You have to go to jail. You have to pay a price. I think it has 
to be clear.
    So I just want to make sure that you are not, when you say 
we have to get--because not all these folks are addicted to 
alcohol. A lot of the young ones are at a party. They don't get 
it. So I think if we are sort of a little bit soft, if you 
will, on the notion that, well, maybe there is a reason and we 
have to understand it. There are certain things I find, you 
know, raising a family and whatever, that there is right and 
there is wrong. You shouldn't drink because I love you and its 
hurts you and you can't handle it, and all that is important. 
But dare you get in a vehicle, you are going to pay a price 
forever.
    I just wonder if I am misunderstanding what you are saying, 
let me know please.
    Judge Fields. If I come off as soft, please ask any of the 
defendants in my court and they will tell you otherwise.
    Senator Boxer. OK. Good.
    Judge Fields. What I am saying is, what we want to prevent 
is that second DWI and that third DWI and that fourth DWI. You 
are absolutely right, Senator Boxer. We can throw those folks 
in jail and we can throw away the key for a very short period 
of time.
    But ultimately, what we really want to do is change the 
thinking, change the behavior that gets them behind the wheel 
of that car intoxicated in the first place. The way that we do 
that is imposing a system, a menu of sanctions that allows a 
judge to stop the drinking behavior for those who just cannot 
drink, and certainly alters the decision to drink and then 
drive for those who may be able to handle consuming alcohol, 
but just made a poor decision. But you have to have an arsenal 
at your disposal in order to do that effectively.
    Senator Boxer. Well, I think that is good advice for us.
    Did you want to add to that, Mr. Birch?
    Mr. Birch. Yes. New Mexico had an example that others 
States are following. Senator Vitter mentioned earlier about 
where the problem lies with the underage and also that hardcore 
drinker. He is absolutely right, but there is also that third 
party, because when you take a look at the hardcore driver, it 
is about one third of the problem. Two thirds are first time 
offenders.
    This is why it is so important to have that device to help, 
to make sure that we don't get to that second or third offense. 
The alcohol ignition interlock on the first time offender, 
because if you look at that snapshot of the first time, it is 
very close in drinking habits to that two time offender. So 
let's catch it while we can early, so we don't have that repeat 
offender like the one that killed my son with three previous 
convictions.
    Senator Boxer. Right. What I am going to do is extend my 
time when I am done, 10 minutes in all. And I will give Senator 
Vitter 10 minutes because that would finish my questions.
    I want to talk about that device because that is a 
tremendous help. I want to understand what we can do in the 
highway bill to encourage that device going into these 
automobiles of the first offenders. Frankly, and maybe I am way 
out here on this, if a device was in every car, what harm does 
it do? But I don't know enough about the technology. Is it hard 
to use it? Is it expensive to put it in? What burden would it 
put on an ordinary driver? I am just curious about it.
    Do you have someone there who understands it? Do you 
understand it, Mr. Wheeler? Mr. Wheeler seems to know, but if 
you don't think he answers it right, let me know. So talk to me 
about that.
    Mr. Wheeler. Madam Chair, in New Mexico we convened a group 
to look at a lot of things. We brought people from Japan. We 
brought people from Saab in Sweden to show us third and fourth 
generation technology, a steering wheel wrap that uses galvanic 
skin responses like a lie detector to be able to measure that.
    The device is simple. One of the members of the first panel 
had it up here on the chair. You blow into it. It measures the 
alcohol in your breath. It is connected to the motor vehicle. 
There is a cost associated with it. In New Mexico, we have an 
ignition interlock fund for people.
    Senator Boxer. How much is it per car?
    Mr. Wheeler. About $1,000 or so to install. We also have a 
program in New Mexico where people can voluntarily do it, and 
we have had parents doing that for teen drivers and for other 
people. We have had people step forward and say, I want to do 
it; I have a problem and I want to do that before I get caught 
or before I kill someone.
    Senator Boxer. I guess that price will go down with time.
    Mr. Wheeler. It already is.
    Senator Boxer. Mr. Birch and then your cohort there. I 
don't know your name. What is your name, sir?
    Mr. Hurley. I am Chuck Hurley. I am honored to be the CEO 
of MADD.
    Senator Boxer. Wonderful. Please join us at the table. Yes, 
if Senator Vitter has no objection. Is that all right?
    Senator Vitter. Sure.
    Senator Boxer. OK.
    Mr. Birch. I also want to mention the cost is down, 
anywhere from $100 to $150 that we found.
    Senator Boxer. Really?
    Mr. Birch. Yes. Again, if you take a look at last year, we 
had about 1.5 million arrests and only about 100,000 interlocks 
placed in vehicles. We can get that cost down, first of all, 
when we get the device on the vehicle, it is 90 percent 
effective when it is on the vehicle, so it does work. Once we 
get them on there, the costs generally will go down as well.
    Senator Boxer. Yes.
    Sir?
    Mr. Hurley. Madam Chair, Chuck Hurley, CEO of MADD.
    There are three opportunities in the highway bill that we 
would like you to consider. The first is to have a major 
incentive grant that would get other States to follow the lead 
of New Mexico. There are now four States, and Louisiana, 
Senator Vitter, is one of those four States that has just done 
that. The science is overwhelming, up to 90 percent effective 
in reducing recidivism. And yet it does require States to 
revamp their licensing and judicial systems so an incentive 
program will work.
    Senator Boxer. This would say if you have a program that on 
the first conviction there has to be this device installed on 
the car.
    Mr. Hurley. Exactly. As Glynn said, 27 years after 
everybody knows what drunk driving does, to drive drunk over 
.08 we believe that person needs an interlock. It should stay 
on until they prove they have gotten the help they need.
    Senator Boxer. And how many States have done this?
    Mr. Hurley. New Mexico was the first. Three States enacted 
last year, Louisiana, Arizona and Illinois.
    Senator Boxer. OK.
    Mr. Hurley. And we are very hopeful about your State.
    Senator Boxer. Well, they had better shape up.
    Mr. Hurley. We have a bill with bipartisan sponsorship in 
the California Highway Patrol who are terrific.
    Senator Boxer. Good.
    Mr. Hurley. The second opportunity really is to increase 
the funding for enforcement with the Governors Highway Safety 
Association, in the 402 program, perhaps a substantial vertical 
grant for enforcement because the 402 program is suffering from 
that Washington disease of hardening of the categories. They 
need to have the ability to plan and enforcement should be the 
first priority.
    The third and perhaps most important point, Madam Chair and 
Ranking Member Vitter, is the opportunity for technology 10 
years out. The automobile industry, working with the U.S. 
Department of Transportation and MADD and the insurance 
industry and others, believe they can make new cars in about 10 
years that won't be operable by drunk drivers at .08 and above. 
Some of it is transdermal, some of it is near-infrared, some of 
it is ocular, some of it is algorithms. Cars can park 
themselves these days.
    The technology can be there, but MADD's most important job 
will be to build the public support to allow that to happen. We 
don't seek a mandate for that. We think it has to be done in a 
voluntary data-driven way, and the opportunity in the highway 
bill, the U.S. Department of Transportation has a cooperative 
research agreement with the automobile industry, and we want to 
make sure that is adequately funded.
    Senator Boxer. Thank you.
    Judge Fields. Senator Boxer.
    Senator Boxer. Yes.
    Judge Fields. May I add something? Interlock devices are an 
invaluable tool for judges. It goes back to what I was saying 
earlier about the right hand knowing what the left is doing. 
Say, for instance, I put an interlock device on a person's car. 
Once their case is disposed of, a final conviction takes place, 
I am obligated to remove that device from their car.
    So what that essentially does, while it is a great thing to 
have that interlock device on their car, it forces people into 
those quick plea bargains that you are talking about, so that 
they can get the device removed.
    Now, maybe their license is suspended, but they will 
continue to drive with a suspended license and no interlock 
device. That is why it is important that we educate judges who 
it is that we are seeing. Does this person in front of us look 
like a hardcore drunk driver, a potential repeat offender, 
someone that we need to take extra steps in making sure that 
they don't repeat or recidivate.
    Senator Boxer. So your State law says you have to remove 
that interlock device once a certain period of time goes by?
    Judge Fields. Yes, ma'am.
    Senator Boxer. OK. So wouldn't that be fixed if the State 
law was changed?
    Mr. Hurley. In fact, Illinois, Madam Chair and Canada, and 
perhaps also in Louisiana, have what is called compliance-based 
removal; that the interlock should go on a first offense and if 
they violate or tamper with the device, the clock resets. In 
other words, it should only come off when they have a 
substantial period of compliance, which would mean they have 
gotten the help they need.
    Senator Boxer. Senator.
    Senator Vitter. I have the same question as the Chair. 
Presumably, that problem with the interlock device that you are 
describing in Texas can be easily fixed with State legislation.
    Mr. Hurley. It can be easily fixed if the State legislature 
in Texas would like to, and thus far Texas has one of the worst 
drunk driving records in the United States.
    Senator Vitter. If Texas passes a State law similar to what 
we are talking about, that limitation of use of interlock 
device goes away. Correct?
    Judge Fields. Possibly.
    Senator Vitter. Well, not possibly, certainly. There is 
nothing in natural law of the U.S. Constitution that says you 
can't use these interlock devices for a protracted period of 
time, as was described by the other witness, right? It is a 
function of State law.
    Judge Fields. I think that State law can help, but unless 
you treat the offender and stop the drunk driving behavior, 
there are many occasions where I order interlocks and the 
interlock restriction is on the license and the interlock 
restriction is placed on a car, and they drive another car. 
What we have to do is get these folks into programs that stop 
the behavior that leads to needing to blow into the device in 
the first place.
    Absolutely use the devices. Absolutely.
    Senator Vitter. I understand that if they can use another 
car, that is a problem. I mean, that is a problem in any State 
no matter what the State law is. But you agree this issue that 
you identified of having to take it off upon final 
adjudication, that specific issue which you identified just 
goes away if you have the right State law.
    Judge Fields. It can go away, but what you would then not 
have if you just imposed a law that said you have to keep the 
interlock device on forever----
    Senator Vitter. Not forever, for some significant period of 
time until a person's behavior over that significant period of 
time is proven out to be responsible.
    Judge Fields. Until they modify their behavior, and that is 
why you would have to give judges the ability, post-conviction, 
to move them into treatment somehow, because that is how you 
modify the behavior.
    Senator Vitter. Well, yes. I think that ability exists in 
every State now. It is a question of funding and other 
opportunities.
    Judge Fields. Precisely.
    Mr. Hurley. Senator, one of the tougher problems you have 
just identified, Texas law mandates that interlocks shall be 
imposed upon second conviction, and yet as the Judge I think 
agrees, only about 14 percent or 25 percent of the judges in 
Texas comply with that law. Even when the States pass good 
laws, there is an issue of judges ignoring that without 
penalty.
    We agree, judicial education is a very key component, but 
we need to really work on when a law is passed that judges 
should respect that law.
    Judge Fields. The judges in Harris County follow that law, 
and while I won't agree with you, I won't disagree with you 
because I don't have the stats and I am under oath. So what I 
will say is that greater education efforts will increase the 
likelihood that judges will comply with whatever laws there 
are.
    Senator Vitter. Judge, do you disagree with State law that 
would mandate this as it now does in my State for first time 
offenders?
    Judge Fields. The imposition of interlock devices on all 
first time offenders?
    Senator Vitter. Correct.
    Judge Fields. I have never looked at the issue so I can't 
say that I agree or disagree with it. I would have to see how 
your State implements it.
    Senator Vitter. It implements it like I just said.
    [Laughter.]
    Senator Vitter. I have to be honest. I share some of the 
uncomfortableness with your testimony. Some of this stuff is 
not that complicated, in my mind, and I think it is pretty darn 
justified to have that device for any first time offender. I 
guess I am asking if you agree or disagree with that.
    Judge Fields. I think that interlock devices are very 
helpful. I don't know, without looking at the practical effects 
of how it would work out, I can't say that I can say yes 
absolutely this will work, without knowing more about how the 
law would be drafted. And that is part of why it is so 
important to involve judges in the process because when you are 
sitting in that chair, yes, I see how the law is written, but I 
am going to be dealing with a very crafty lawyer who is going 
to do everything he can to work around it. So without seeing 
the law, I don't want to speak on it out of ignorance.
    Senator Vitter. Well, Mr. Wheeler, maybe you can give us 
insight into practical impact. You all have had a, or you 
project a 20 percent overall reduction. How significant in that 
reduction has been interlock devices? Can you tell yet?
    Mr. Wheeler. Madam Chair, Senator, I am not sure we can 
tell yet. We think it has had an impact. We think a number of 
these programs have. There are problems with ignition 
interlock. One of the problems we have seen is in several of 
our counties we have a high percentage of people who say, and 
we have checked, and they don't have a motor vehicle registered 
to them. We know they drive.
    So it increases our need for enforcement, which was of 
course one of the MADD priorities and one of the priorities we 
would ask for in the transportation bill, Madam Chair, is an 
increased enforcement effort because the Judge is perfectly 
correct.
    OK, I sentence you to ignition interlock, but if there 
isn't follow up and if there isn't an absolute continuous 
monitoring--by the way, the cost that I mentioned is for the 
year-long first time offender to have that device monitored and 
you have to go in and you have to have it checked. The 
installing is pretty cheap, but dealing with the repercussions 
of it and actually following through takes a lot of judicial 
resources and it takes a lot of law enforcement resources.
    So one of the problems we have seen is people say, I don't 
have a car. We check. They don't have a car. We know they 
drive. They live in rural New Mexico. You can't get anywhere 
without driving and there is no public transportation.
    So it increases our need for follow up services. It 
increases our need--in New Mexico law, there is treatment 
mandated. But some of those treatment opportunities are not 
available in rural New Mexico. I suggest they are probably not 
available in rural Louisiana or rural California either.
    So those are issues that confront us. Ignition interlock is 
certainly not a panacea, but it is something that we have seen 
that has been an effective tool in the arsenal, as the Judge 
mentioned, and it is something that we are continuing.
    We were very excited to see some of the third and fourth 
generation technology regarding interlock, the steering wheel 
wraps and some of the other things. They pose some really 
tremendous opportunities for the future.
    Mr. Birch. Senator Vitter, again I applaud your efforts. 
What we had to do is, as I mentioned before, we are going to 
have to do something different if we expect to lower the 
plateau of deaths that have been there for a number of years. 
The success in New Mexico has paved the way and your State is 
one of the States that brought on the change.
    Yes, that language needed to be massaged. Instead of it 
coming off at a given time, let's allow that offender--it is 
win-win situation for the offender and the public. Let him earn 
the right to get that device off. And if he re-offends, it 
stays on. But we have to do something because we are literally 
talking about lives, and this is the leadership that we need 
from the Committee. So again, I applaud what your State has 
done. We can do it in every State.
    Senator Vitter. Thank you. I appreciate that.
    I wanted to ask about the cost. That total package cost you 
said was about $1,000 now?
    Mr. Wheeler. Madam Chair, Senator, that is what I recall.
    Senator Vitter. I am just curious. Of that, what is the 
cost of the device and installing the device?
    Mr. Hurley. If I could, the installation fee is about $150 
perhaps, and it somewhere between $60 and $70 a month to 
maintain it. The good news is that is all paid for by the 
offender, not the taxpayer. It is less than the cost of a drink 
a day, $2 to $3 a day. We think that it is an excellent system.
    Some of the research that has been done in New Mexico 
points out that interlocks are the key difference in the 20 
percent decline, the work done by Dick Roth and others. So we 
are very focused on what Louisiana is doing. We hope California 
will follow, and certainly what Illinois and Arizona are doing 
as well.
    Senator Vitter. Is there any sense of how that price will 
come down with greater use of it, No. 1? And also, this 10 year 
project, building into autos, is there any guesstimate on the 
cost of that per vehicle?
    Mr. Hurley. There are really two different technologies. 
The current technology is the fuel cell breathalyzer 
technology. Again, the costs are fairly stable. It may come 
down some, but $125 to install and $60 to $70 a month we think 
are reasonable prices to protect the public. Our lead volunteer 
in South Dakota lives down the road from what we believe to be 
the national record, a guy that has been arrested for the 34th 
time. At some point, enough is enough. We have to protect the 
public, and interlocks do that.
    The advanced technology is really extraordinary in that it 
offers the opportunity if it pans out both in technology and in 
public acceptance, of literally not allowing cars to start .08 
and above. It won't stop drinking, never MADD's goal. It won't 
stop impaired driving that begins before .08. But .08 and above 
can be eliminated through that technology. It would make drunk 
driving the public health equivalent of polio.
    Senator Vitter. Is there any preliminary guesstimate about 
that cost per vehicle?
    Mr. Hurley. Early estimates are more of what it would have 
to meet, and it would have to be about $200 or less, probably. 
Sensor technology breakthroughs may allow that. It obviously 
cannot hassle sober drivers; 40 percent of the public doesn't 
drink, and the other 40 percent is responsible. It is really 
only 20 percent that needs to be affected. It has to be 
absolutely six sigma reliable and effective.
    There is a blue ribbon panel on advanced alcohol detection 
technology that MADD is proud to serve on, with the U.S. 
Department of Transportation, with the Alliance for Automobile 
Insurers, who really need to be thanked for this. Drunk driving 
isn't their problem. They don't sell alcohol at dealerships. 
They are stepping up and really all over the world, in Japan, 
in Europe and in North America, all the auto companies are 
looking at this advanced technology, and we thank them for 
that.
    Senator Vitter. Well, great. Thank you all.
    Thank you, Madam Chair.
    Just as a closing comment, it sort of goes back to one of 
my earlier comments, a lot of these things are complicated. A 
lot of them have a lot of factors, but for God's sake, let's 
not allow that to just lull us into paralysis, like there is 
nothing we can do, or like the fact that this interlock device 
can have a major impact. No one is pretending that it is the 
panacea, but anything that can have a major impact is worth 
doing.
    Senator Boxer. I want to thank the panel very, very much.
    I want to thank Senator Vitter as well.
    I am going to speak with my Governor, write to my Governor 
about moving forward on this. It just makes so much sense, and 
I want to congratulate New Mexico, Louisiana, and the other 
States that are really taking the lead.
    You know, it is very important, it seems to me, to have a 
vision of a better future for our children and our 
grandchildren. That is what propels me to stay in this work, 
and I am sure others as well. There was once a bumper sticker 
during the Vietnam War that just said, Imagine Peace, because 
it gets to a point where you can't even imagine what an absence 
of war is after so many years.
    And so, you know, you want to imagine what it would be like 
if we could solve this problem and if you could kind of flash 
back to your story, Mr. Birch, and what it would have meant to 
you.
    So I applaud Mothers Against Drunk Driving and the other 
organizations, but particularly Mothers Against Drunk Driving 
for what you do because, as Senator Vitter says, you can get 
into a mind set of, gee, we have done all we can, we have made 
the progress, but we are kind of stumped.
    But I think the key here for the long range is this future 
where when everyone gets in a car, there is a simple way that 
it simply won't start if your blood alcohol is over a certain 
level. So therefore when we do our bill, Senator, I hope we 
will do a little bit of a Manhattan Project for this. I mean, 
my goodness, the things that we can do in this great Country. 
We should be able to figure that out and get it to a point 
where it is not a prohibitive cost so that it goes into the 
automobile just as we now couldn't imagine automobiles without 
airbags and seatbelts.
    Because I think, Judge Fields, I compliment you on your 
work. You are obviously committed, but you harp about treating 
the addiction, treating the addiction, and that is important 
and we have been trying to treat the addictions for years and 
years and years. I make a difference, I mean, no one could be 
stronger on stopping addiction and being fair to people and 
giving them a chance and giving them treatment, than I am. You 
go back to everything I believe in, I believe in that.
    But I see a difference between that and someone with an 
addiction, with a problem, or just because they don't get it, 
or are too stupid to understand what it means to get drunk at a 
party, getting behind a wheel. It is a different thing from the 
addiction.
    I would venture to say a lot of these people who get behind 
the wheel don't have an addiction. They just, on the weekend 
they go to a party. They could take it or leave it, but they 
are going to get in a car.
    So I think we need to, because we have always tried to stop 
the addiction, and we should never stop trying ever, because we 
are going to make a difference in some lives, and it is 
important. But to me, I am looking at the innocents, the kids 
running into the truck to buy an ice cream. I think to get to 
that, we just need a whole other mind set.
    We will work on the addiction over here, but we will stop 
any human being who can't drive from getting in that 
automobile.
    So as we write the highway bill, and it is going to be 
really an exciting time when we get to that, I will take it to 
heart what you have said, and I hope we can work across party 
lines here and get this done for you.
    Again, I want to thank Senator Vitter for coming and being 
so positive in this hearing. And I want to thank the panelists. 
Thank you very much.
    We stand adjourned.
    [Whereupon, at 11:50 a.m. the subcommittee was adjourned.]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Thank you Mr. Chairman. As a member of both Environment and 
Public Works and Commerce Committees, the Chair is well aware 
of the jurisdictional distinction between the two Committees 
when it comes to safety issues. EPW does the ``hard side'' or 
bricks and mortar and Commerce does the ``soft side'' or 
behavioral side. Thus, the issue of reducing drunk driving 
falls largely in the Commerce Committee's purview as they have 
sole jurisdiction of the National Highway Traffic Safety 
Administration (NHTSA) and drunk driving incentive grant 
program. Nonetheless, I welcome a discussion of the 
effectiveness of the nation's drunk driving programs in 
preparation for reauthorization of SAFETEA.
    More often than not, when discussing transportation issues 
we focus on problems with funding, congestion and the physical 
State of our infrastructure; but equally important is safety 
while driving on our nation's roads. As Chairman of this 
Committee during the development of SAFETEA, I made safety a 
priority. A hallmark of SAFETEA is a comprehensive and 
unprecedented new core program focusing solely on addressing 
safety problem areas.
    States must develop comprehensive safety plans that address 
their biggest safety hot spots. The Highway Safety Improvement 
Program, or H-Sip, targets funding to the greatest problem 
areas. As we get closer to reauthorization, I hope that as the 
Subcommittee Chair on safety issues, you will be scheduling 
oversight hearings on H-Sip so we can see how well the new 
safety core program is working. In fact, I have GAO examining 
that program as we speak.
    While I applaud and support efforts to get drunk drivers 
off the roads, I have opposed and will continue to oppose 
efforts to achieve this through Federal mandates or sanctions. 
As a former Mayor and State Legislator, I know that Washington 
does not have all the answers and certainly does not always 
have the right ones. States know best what is appropriate for 
them. The closer government is to the people the better the 
results.
    SAFETEA provided $500 million in grants to encourage States 
to adopt and implement effective programs to reduce drunk 
driving. States are actively taking advantage of the incentives 
Congress has put in place. I am sure my colleagues would agree 
that it is far more effective to work with states and allow 
them to determine what works best in their case rather than 
dictating a one size fits all legislative prescription.
    TEA-21 directed States to implement a 1 year hard 
suspension for repeat offenders, using the threat of reduced 
Federal highway funds if they failed to comply. This one size 
fits all Federal prescription had the effect of derailing 
efforts to develop interlock technologies, and handicapped 
State's ability to put in place their own effective drunk 
driving laws. This well intentioned Federal mandate set States 
up for failure, and denied judges the flexibility needed to 
most effectively sentence repeat offenders on a case by case 
basis.
    Prior to TEA-21, many States were implementing their own 
repeat offender sentencing guidelines, using interlock 
technologies and other initiatives tailored to their needs, 
including my own State of Oklahoma. But all efforts stopped 
after the TEA21 mandate because States did not want to risk 
losing out on Federal dollars for not following the new Federal 
drunk driving mandate.
    A SAFETEA technical corrections bill that would allow 
states more flexibility with their drunk driving laws by 
amending the existing repeat offender provision was approved 
twice by both this Committee and the full House. While the 
final bill awaits further Senate action, I think the message is 
clear, both Chambers recognize that leaving this decision to 
States is optimal. It is also important to note that this 
provision changes a previous mandate that we now recognize as 
being ineffective. I see this as proof of my point that 
Washington does not know best and should not impose its will on 
states.
    The loss of life, especially due to a drunk driver, is not 
only tragic but unacceptable. However, to continue the practice 
of holding State transportation funds hostage while we force 
them to adopt federally imposed, one-size fits all solutions to 
combat drunk driving, should not be the answer. Each State has 
the right, and frankly the responsibility, to implement 
appropriate laws that meet the needs if its citizens. Mr. 
Chairman, while you and I differ on how to achieve the desired 
result, we both agree combating drunk driving must be a 
national priority. I look forward to working with you on this 
and other issues as we begin to think about reauthorization of 
SAFETEA.
    I look forward to the testimony and of The Honorable 
Michael R. Fields, a criminal court judge who deals with DUI 
cases every day and can provide a unique insight on this issue 
from a local level.
    I want to welcome all our witnesses today and thank them 
for taking time out of their schedules to share with us their 
ideas on how to most effectively address drunk driving at the 
Federal level.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
